<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                        WEDNESDAY, JUNE 21, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:39 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Lamar Alexander (chairman) 
presiding.
    Present: Senators Alexander, Collins, Hoeven, Kennedy, 
Feinstein, Murray, Tester, Udall, Shaheen, Merkley, Coons, and 
Leahy.

                          DEPARTMENT OF ENERGY

                        Office of the Secretary

STATEMENT OF HON. RICK PERRY, SECRETARY
ACCOMPANIED BY ALISON L. DOONE, DEPUTY CHIEF FINANCIAL 
            OFFICER


              opening statement of senator lamar alexander


    Senator Alexander. The Subcommittee on Energy and Water 
Development, please come to order.
    Today's hearing will review the Administration's fiscal 
year 2018 budget request for the Department of Energy. This is 
the subcommittee's third budget hearing this year. We have our 
final hearing on the budgets for the Corps of Engineers and 
Bureau of Reclamations next week.
    Senator Feinstein and I will each have an opening 
statement. I'll then welcome the other Senators who are here, 
and I'll recognize each of you for up to 5 minutes for an 
opening statement, if you'd like to make one after Senator 
Feinstein and I finish, alternating between the majority and 
minority.
    Our guys must still be at lunch or something.
    [Laughter.]
    Senator Alexander. Congratulate the democrats for being 
here.
    We will then turn to Secretary Perry, whom we welcome 
today, for testimony on behalf of the Department of Energy. And 
at the conclusion of Secretary Perry's testimony, I'll 
recognize Senators for 5 minutes of questions each, alternating 
between the majority and minority in the order in which they 
arrived. I want to make sure that there's--Mr. Secretary, I 
hope your schedule permits it, but we may have several 
questions, and my instinct is to let the Senators ask the 
questions that they want to ask.
    First, I'd like to thank Secretary Perry for being here 
today. He was only confirmed March the 2nd, but he's been able 
to get into his job very quickly. He's been secretary for less 
than 4 months, but he's dived into some difficult issues here 
in Washington that we've been working on. For example, the MOX 
(Mixed Oxide) situation in South Carolina, the nuclear waste 
stalemate, he's already begun to provide leadership in that 
area, and he's taken time to go see the responsibilities under 
his secretaryship. Yucca Mountain, he's been there, Los Alamos 
National Laboratory in New Mexico, Senator Udall, he's been 
there, Idaho National Laboratory, Oak Ridge National 
Laboratory, he spent a day in Tennessee, Italy for the Group of 
7 Ministers meeting, and even visited the Fukushima nuclear 
complex in Japan. So I congratulate him for that.
    And I also thank him and his staff throughout this initial 
phase of being available to us in Washington DC. When we've had 
questions, it's been an easy relationship in terms of getting 
questions and answers. I thank him.


                  fiscal year 2017 appropriations law


    I also want to thank Senator Feinstein. I do this whenever 
I have the opportunity, but it's a great pleasure to work with 
her again in drafting the Energy and Water Appropriations Bill. 
We've been able to do that in a bipartisan way. We have our 
differences, but we know how to resolve differences, if we 
possibly can. Last year we were able to do it, and not only 
report it to the full committee, but pass our bill on the floor 
of the United States Senate, and as a result, we had 87 
different Senators of the 100 who had some say, some request, 
some comment in our bill because it was widely participated in.
    That bill provided record levels of funding for the Office 
of Science that funds the department's 17 national 
laboratories. It had a record level of funding for the Corps of 
Engineers, which builds our Nation's locks and dams in dredges 
our ports, and which is the top priority for more than one-half 
the Senators that submit requests to this subcommittee. The 
bill also supported super computing, something the Secretary's 
talked about, allowing our national laboratories to maintain 
five of the ten fastest computers in the world, maintain the 
Nation's nuclear stockpile, cut wasteful spending, and done all 
of this within the constraints of the Budget Control Act.


                    fiscal year 2018 budget request


    We're here today to review the Administration's fiscal year 
2018 budget request for the Department of Energy. The 
department has three critical missions: nuclear security, 
science and energy, and environmental management. The budget 
request for 2018 is about $28 billion. This is a decrease of 
about $2.9 billion below what Congress provided in the fiscal 
year 2017, Energy and Water Appropriations Bill, which was just 
approved a few weeks ago.
    The budget request significantly decreases the investments 
to federally funded research and development. It terminates 
ARPA-E (Advanced Research Projects Agency-Energy), we'll want 
to talk more about that, and recommends reducing the Office of 
Science, which is in charge of our national laboratories, by 
over $919 million, the Energy Efficiency and Renewable Energy 
by $1.45 billion, nuclear energy by $310 billion, and the 
Office of Electricity by $110 billion.
    That's why we're holding this hearing, to give Secretary 
Perry an opportunity to discuss the department's priorities, so 
Senator Feinstein and I can make informed decisions as we begin 
to write the fiscal year budget in the next few weeks.
    We want to make it clear that governing is about setting 
priorities and we'll be setting the priorities here within the 
Congress, but if we find useful suggestions within the 
President's budget, we'll be glad to consider them.
    For fiscal year 2018, under the Budget Control Act spending 
caps, Congress has slightly less money to appropriate than last 
year. It would seem to be almost the same. Senate republicans 
have agreed to markup our appropriations bills to the same 
overall number that Congress approved in the omnibus 
appropriations bill we passed in May.
    I hope that will permit us to markup our bill in a 
bipartisan way. Congress may agree to add funds later in the 
year, and if it does, we can do as we did in 2016, we would add 
those amounts to what we've already agreed on. In the meantime, 
our allocation may be as much as 2 percent lower for nondefense 
spending, which made up about 47 percent or nearly half of the 
Energy and Water Appropriations Bill last year.
    On the defense side, it's not clear what our allocation 
will be, but the President's budget has proposed about a 
billion more than last year to continue modernizing our 
Nation's nuclear weapons stockpile.
    Today I'd like to focus my questions on four major areas, 
which I will do later, all with an eye toward setting 
priorities. One, prioritizing Federal support for science and 
energy research. Two, ensuring the department is spending the 
money Congress provided last year in the 2017 budget as 
Congress intended and the way Congress intended. Three, 
oversight and management of large projects, like MOX, and ITER 
and the uranium facility, and, Senator Udall would want me to 
say, the planning for the plutonium facility in New Mexico, and 
solving the nuclear waste stalemate.


      prioritizing federal support for science and energy research


    Number one, the U.S. continues to produce more than 20 
percent of the wealth each year for just about 4 percent of the 
people. We're a wealthy country. And as researchers have told 
me, it's hard to think of a major technological advance since 
World War II that has not involved at least some government 
sponsored research. Much of that research is done at our 17 
national laboratories, which are our secret weapons for 
innovation research that leads to better jobs and higher family 
incomes.
    Research funding for the Department of Energy labs has 
produced technologies for unconventional natural gas 
development, super computing, 3-D printing, nuclear imaging 
devices used for medical diagnosis, MRI scanners, optical 
digital recording technology used to make DVDs, batteries, and 
energy storage systems for cars and trucks and the electric 
grid, precision detectors and pharmaceuticals.
    The department's research programs have made the United 
States a world leader in science and technology, and these help 
us maintain our brain power advantage, so we can remain 
competitive with other countries. And that's why last year 
Senator Feinstein and I in this committee provided record 
funding levels in a regular appropriations bills for the 
department's research programs, including $5.392 billion for 
the Office of Science, $300 million for ARPA-E, and $1 billion 
for the Office of Nuclear Energy.
    The Federal budget can't be balanced on the backs of 
national labs, national parks, national institutes of health, 
and national defense. Those aren't the problems. The problems, 
we all know it, are the mandatory entitlement funding which is 
going up. National labs, national parks, national institutes of 
health, and national defense, has been like this since 2008, 
and it's projected by the Congressional Budget Office to stay 
like this. In other words, it's under control. Spending in the 
trillion dollars that the appropriations committee works on is 
under control. It's going up at about the rate of inflation. If 
the rest of the budget was as under control as the 
appropriations committee part of the budget, we wouldn't have a 
Federal debt. So maybe we should take over the rest of the 
responsibility for the rest of the Federal budget, instead of 
getting lectures from people about balancing the Federal budget 
on the back of the national labs, national parks, national 
institutes of health, and national defense.
    The Federal debt is not the result of energy and research. 
The U.S. faces a choice between falling behind China, or 
advancing technologies can make us more competitive.
    In June of 2017, ranking the world's most powerful super 
computers, China maintains the top two places, Switzerland is 
third, and Titan at the Oak Ridge lab, which is the fastest 
super computer in the United States, moved to fourth. That is 
despite consistent support from the last administration and 
from a bipartisan group in the United States Congress the last 
several years.
    Now, in 2018, the Oak Ridge lab will complete Summit, which 
will be five times faster than Titan. Secretary Perry saw 
Titan. I think he wrote his name on it, right above Al Gore's. 
And that will help researchers better understand materials and 
nuclear power and support more energy breakthroughs.
    I'm pleased to see that the department's budget request 
prioritizes super computing and includes $508 million to 
deliver the first Exascale machine by 2021.


  ensuring the department of energy is spending its money as congress 
                                intended


    Now, my second question later will be about making sure the 
department spends the money it has in the way Congress 
intended. We have heard that the department is delaying funding 
announcements based on objections to climate change and clean 
energy research. The truth is, increased research and clean 
energy is important in dealing with climate change, but that is 
only one reason to do it. It's also important to lower the cost 
of electricity, which raises family incomes and spurs economic 
growth. In fact, when we did Rising Above the Gathering Storm 
10 years ago, the committee considered making it all about 
energy because that was such an important anchor for our 
economic growth. So I'll be asking you, Mr. Secretary, about 
ARPA-E, about advanced manufacturing, about biological and 
environmental research, and I'll need your assurance that 
you'll continue to fund projects consistent with Congressional 
intent in the omnibus appropriations bill.


               oversight and management of large projects


    Third, ensuring effective oversight of large construction 
projects. I'm taking a little time on this, but it's important 
that we do. Over the past 5 years, Senator Feinstein and I have 
worked hard with the department to keep costs under control, 
and we've had some success, especially on the uranium facility 
in Tennessee, which was once out of control, and as a result of 
the red team recommendations, is on time and on budget 
according to General Klotz. It has a target of completion in 
2025, at a cost of $6.5 billion, and the designs of the nuclear 
facilities will be 90 percent complete later this year.
    Your budget requests--Senator Leahy, if you have to leave, 
I'll be glad to stop my remarks and let you say a few words, if 
you'd like to. I know you have other commitments.


                 statement of senator patrick j. leahy


    Senator Leahy. Mr. Chairman, I appreciate that. I'm simply 
going to put the statement in the record, but I'm going to urge 
the Secretary not to ignore the technological advances we made 
or the fact that they're going to cost money to continue them, 
if we're going to, ``change the world,'' as the Secretary said, 
I agree with him on that, we've got to spend money.
    You, Mr. Chairman, have always pushed for money for 
technological research, as has Senator Feinstein, and we can't 
turn such research on and off. We have to continue it. But I'll 
put my whole statement in the record.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    I want to thank Chairman Alexander and Ranking Member Feinstein for 
having this hearing today to discuss the administration's fiscal year 
2018 Budget Request for the Department of Energy. Secretary Perry, the 
Energy Department is one that has a wide array of responsibilities and 
roles in this country and internationally.
    Secretary Perry on your first day on the job you challenged the 
Department's employees to ``go change the world.'' You remarked how you 
were quickly learning what a consequential role the Department has to 
change the world every day. But the budget proposal you are presenting 
to us today will not move us forward nor will it address our Nation's 
needs, challenges, or quite frankly our values.
    We cannot roll back the important progress that has been made in 
promoting science, energy efficiency, renewable energy, and climate 
advancements by failing to invest in America's clean energy economy. 
That clean energy economy stands to create millions of good jobs in 
rural communities across the country, and will result in billions of 
dollars in exports of renewable energy goods. This is a well-documented 
opportunity to create jobs and invest in the industries of the future 
to make our economy more innovative, productive, and clean. We have 
come too far to allow all the progress we have made to be washed away 
by attempts to reject science and common sense environmental 
protections.
    During your confirmation process, you said that if confirmed you 
would ``look out for the good of all Americans'' with respect to the 
Department's important mission. We cannot achieve that mission if we 
stop investing in technology and innovation, as this budget proposal 
would do, or leave thousands of low-income households in the cold by 
eliminating the Weatherization Assistance Program, as the President 
intends. Many of the great technological advances and innovative 
products we see in the marketplace today are the result of Federal 
research and investments that were made over 20 years ago. This 
research has a wide-reaching impact and cannot simply be turned on and 
off like a light switch. The funding cuts and programs eliminated by 
this budget mean lost American jobs, lost energy savings, and hard 
times for folks who need help--that is a lose, lose, lose proposition.

    Senator Alexander. Thank you, Senator Leahy.
    Senator Leahy is the Ranking Democratic Member of the 
committee. We're delighted to have him here today, and his 
statement will be made a part of the record.

                 MIXED OXIDE FUEL FABRICATION FACILITY

    Your budget request, Mr. Secretary, also proposes shutting 
down the MOX fuel facility in South Carolina and replacing it 
with an alternative called dilute and disposal. We've talked 
about this project many times. Last week General Klotz told us 
the cost to build the MOX facility will be $17 billion, 
including $12 billion still to go, compared to $500 million 
needed for the dilute and dispose option. He also told us the 
MOX process would cost $800 million to $1 billion per year to 
operate, compared with $400 million for dilute and disposal.
    I'm anxious to hear your views on that. I look forward to 
learning more about your views on ITER, which we have talked 
about.

                        NUCLEAR WASTE STALEMATE

    Now, finally, solving the nuclear waste stalemate, to 
ensure that nuclear power has a strong future, we've got to 
break that 25-year-old stalemate, and we welcome your 
leadership in helping us to do that. We need to find places to 
build geologic repositories and temporary storage facilities so 
the Federal Government can finally meet its legal obligations 
to dispose of nuclear waste safely and permanently.
    This year's budget request for the department includes $110 
million to restart work on Yucca Mountain repository, and $10 
million to study ways to open an interim storage site or use a 
private interim storage site. I strongly support Yucca 
Mountain, I believe it ought to be a part of the solution. 
Federal law designates it as the Nation's repository, and the 
Commission's own scientists have told us we can safely store 
nuclear waste there for up to one million years. But even if we 
had Yucca Mountain, even if it were open today, we would still 
need to look for another permanent repository.
    We have more than enough fuel to fill Yucca Mountain to its 
legal capacity. So Senator Feinstein and I, along with the 
leaders of the Committee of Energy, Senator Murkowski, Senator 
Cantwell, Senator Bingaman, Wyden and now Cantwell, have a bill 
to implement the recommendations of the President's Blue Ribbon 
Commission on America's Nuclear Future, which we're working to 
reintroduce this year.
    The legislation complements Yucca Mountain. It would create 
an agency to find additional permanent repositories and 
temporary repositories for used fuel, but the quickest and 
probably least expensive way for the Federal Government to 
start to meet its used nuclear fuel's obligations is for the 
Department of Energy to contract with a private storage 
facility for used nuclear fuel.
    The former Secretary of Energy, Secretary Moniz, told this 
committee last year that the department has existing authority 
to take title to used fuel and contract with a properly 
licensed private company to store it. Understand that two 
private companies have submitted applications to the Nuclear 
Regulatory Commission for consolidated storage facilities, one 
in Texas, one in New Mexico. I'll be asking questions about 
that today.
    I look forward to working with you, Secretary Perry, and 
also with Senator Feinstein, who I now recognize for her 
opening statement.
    Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thanks very much, Mr. Chairman. And I 
think you know how much I value our partnership on this 
subcommittee and our ability to work together, and there's no 
reason why that won't continue. So thank you very much.
    Mr. Secretary, I want to welcome you. We've not had a 
chance to meet and talk in person, but I hope that will change 
and we'll have an opportunity to do so. I represent a big State 
that is very energy conscious, and a lot of good things 
happening there. So I look forward to the opportunity to share 
some of them with you.

                         NATIONAL LABORATORIES

    In a speech at the Idaho National Lab last month, you said, 
``If you work at a national lab, you are making a difference''. 
And I would certainly agree with that. It seems that you 
understand how the national labs are improving people's lives. 
You also seem to understand the important role these labs play 
in making American industry competitive.
    I think you would agree that discovery, invention, and 
innovation, is what made America the economic power that it did 
today. Yet this budget drastically cuts up to 70 percent from 
the four applied energy programs, Energy Efficiency and 
Renewable Energy, Electricity Delivery and Energy Reliability, 
number three, Nuclear Energy, which we'll talk more about, and 
four, Fossil Energy.
    It eliminates the ARPA-E program altogether. And as the 
Chairman has said, it cuts the Office of Science by 17 percent. 
And this is, of course, the budget for the labs. These programs 
foster new discovery. They then build on those discoveries by 
identifying possible uses and collaborating with inventors and 
industry to develop new products. All of this is decimated by 
this budget request.
    Out of a work force of 29,000 across the non-NNSA (National 
Nuclear Security Administration) labs, this budget would layoff 
6,700 people, or 23 percent of the employees. This includes 41 
percent of the people at Ames, 33 percent at Oak Ridge, 29 
percent at the Pacific Northwest, 27 percent at Berkeley, and 
16 percent of the people at the National Energy Technology Lab. 
Every non-NNSA laboratory would see drastic employment cuts 
under this proposed budget.
    To make matters worse, the budget also drastically cuts 
operational run time at all major research machines at the 
national labs. These include the light source at Argonne, 
Berkeley, Brookhaven, and SLAC, neutron sources at Oak Ridge, 
nanoscale source centers at five national labs, and 
accelerators at five national labs.

                         ADVANCED LIGHT SOURCE

    Now, we've seen the positive aspect of these research 
machines. For example, the advanced light source at Berkeley 
was essential to developing the Ebola vaccine. And I would love 
to take you there. You will not see a busier lab, I'll bet you, 
anywhere in America, than you will at Berkeley. And so I issue 
that challenge to you.
    The alternative light source uses X-rays to illuminate the 
smallest but most important players in the battle against 
disease, viruses and proteins that fight them. The intense X-
ray beam is able to produce a detailed map of the protein's 
structure. Researchers from scripts, in collaboration with 
Berkeley lab scientists, use this technique to map Ebola 
antibodies at an atomic resolution. The map guided the 
scientists in developing ZMapp, one of the first drugs that was 
successful in combating the Ebola outbreak in 2014. Similar 
experiments using ALS are essential for developing new drugs 
for other emerging diseases. Researchers from Indiana 
University, Texas A&M, and Berkeley, are using the ALS to map a 
key Zika protein known as NS5. This protein compromises the 
body's immune system so the virus can't replicate--excuse me, 
can replicate.
    Understanding how these processes work will allow 
researchers to develop new ways to treat Zika and other health 
threats. The advanced light source can also be used to research 
material properties, to understand their structures, and 
chemical properties on a molecular or even atomic scale. GE 
Aviation recognized the power of these large-scale scientific 
tools and entered into a multi-year partnership to use the ALS, 
the advanced light source. GE is using the machine to study new 
composite materials that could improve the efficiency and 
performance of jet engines by allowing them to operate at 
higher temperatures. Something that it appears with our weather 
patterns that could really be necessary.
    The ALS's X-ray beams and ultra high temperature testing 
capabilities allow GE researchers to create 3-D microscale maps 
of composite materials to watch how they perform in real time 
and under realistic operating conditions, a capability that 
drew GE Aviation to the ALS in the first place. The results of 
their studies have already provided insight into the ways to 
improve the composite materials' performance.

                  IMPORTANCE OF NATIONAL LABORATORIES

    So all of these examples highlight how the Department of 
Energy provides the irreplaceable tools that make American 
companies competitive and improve countless lives all across 
this great country. So the message of this budget is clear. 
Those capabilities and their outcomes are not important to 
whoever put this budget together, or they wouldn't have done 
it. It also tells students that scientific research is no 
longer a priority of the United States. Imagine the 
irreversible harm we'll do to future industries if we can't 
attract students to STEM (Science, Technology, Engineering, and 
Mathematics) fields today.
    I'd like to finish with a statement you made at a recent 
visit to Oak Ridge. Mr. Secretary, you said, ``The 
Administration's goal to create jobs and wealth, I will suggest 
to you, are centered in the Department of Energy and the things 
that we have the capability of dealing with.''
    We must change this budget. Your quote--you didn't say 
that, I said that part.
    [Laughter.]
    Senator Feinstein. Your quotes make it appear that we agree 
on the importance of the labs to American innovation and 
competitiveness, but the budget request you're defending 
doesn't agree with this. So that's a big problem, and we need 
to square it off. So I hope, Mr. Secretary, that both the 
Chairman, the members on both sides of this aisle, and I can 
work with you, and that we can really develop a budget, which 
is funded to make America proud and keep the entrepreneurship 
that made this country great in the sciences and related 
industries continue on.
    So thank you very much.
    Senator Alexander. Thank you, Senator Feinstein.
    And we'll have Senator Kennedy and then Senator Coons. If 
any Senator has scheduling problems, if you'd let me know. I 
want to make sure you have a chance to have an opening 
statement.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. Have we had the 
opening statement by the Secretary yet?
    Senator Alexander. No. We're having opening statements by 
Senators, if they wish to make them. Then the Secretary will 
make his statement, and then we'll all have a chance to ask our 
questions. So you----
    Senator Kennedy. I know, Mr. Chairman, this is heresy, but 
I don't want to make an opening statement. I'd like to hear 
what the Secretary has to say.
    Senator Alexander. You'll be a very----
    Senator Feinstein. Popular man.
    Senator Alexander [continuing]. Popular Senator. So thank 
you, Senator Kennedy.
    Senator Coons.

               STATEMENT OF SENATOR CHRISTOPHER A. COONS

    Senator Coons. Thank you, Mr. Chairman, Ranking Member.
    You've laid out an important argument in your opening 
statements. The Chairman recited a long list of American 
inventions and innovations made possible by federally-funded 
science. The Ranking Member detailed the advanced light source 
at Berkeley, which I've also visited, and which has contributed 
dramatically to our advances.

                CUTS IN FISCAL YEAR 2018 BUDGET REQUEST

    I just want to briefly say at the outset that I am very 
disappointed with the department's fiscal year 2018 budget 
request. I understand the importance of making tough budget 
choices, but I am struck by the breadth and severity of cuts 
proposed to basic research. Thirty to 70 percent cuts in R&D, 
and in particular, eliminating ARPA-E, the State Energy 
Programs, Manufacturing USA Institutes, energy hubs and more. 
This isn't just cutting. This is, in my view, giving up on the 
clean energy race. This is about jobs, this is about clean 
energy, which creates millions of jobs across our country, 
including, as we know, in your home State. If we don't support 
these jobs in this country, we are simply allowing them to go 
to our competitors around the world, principally China.
    I look forward to your presentation and the chance to ask 
questions later. Thank you for the chance to make a brief 
opening statement.
    Senator Alexander. Thank you, Senator Coons.
    Senator Hoeven, Senators may make an opening statement if 
they wish, and then we'll go to the Secretary, and then we'll 
have questions. Do you have an opening?
    Senator Hoeven. I would not have an opening statement 
unless the Chairman of our subcommittee is encouraging it, 
because I like to support him. So it's entirely up to his call.
    Senator Alexander. You know, you're one of the more 
eloquent United States Senators, but I'd be happy with your 
questions, if you wanted to wait until then. It's up to you.
    Senator Udall.

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Thank you, Chairman Alexander.
    And just very briefly, I want to thank Secretary Perry for 
your recent visit to New Mexico, including Los Alamos and 
Sandia National Labs, and also the Waste Isolation Pilot 
Project near Carlsbad, New Mexico. I think those visits raised 
the morale of the employees, and also let employees know, as 
Senator Feinstein said, what an important job they're doing at 
the national labs.

                     STOCKPILE STEWARDSHIP PROGRAM

    For decades now, the stockpile stewardship program at the 
national lab has guaranteed the safety and responsibility of 
the Nation's nuclear arsenal without testing. It has only 
improved with the advent of more sophisticated computing and 
other science based methods. The United States and Russia 
continue to reduce the number of nuclear weapons as part of the 
New START while we also work to ensure our remaining deterrent 
is safe, secure, and effective, a mission charged to the DOE 
(Department of Energy) and which for over two decades I believe 
you have met on time that yearly recommendation to the 
President.

                          TECHNOLOGY TRANSFER

    You have many other important missions, I'm not going to go 
on long here, but I think technology transfer is tremendously 
important, where you take those good ideas in the lab and move 
them from the lab bench out into the marketplace, and there are 
a number of other things that the two laboratories in New 
Mexico work on, cyber security, legacy waste clean up, and many 
other initiatives. But I really look forward to working with 
you.
    Thank you very much.
    Thank you, Mr. Chairman.
    Senator Alexander. Thanks, Senator Udall.
    Senator Tester, Senators have an opportunity, if they'd 
like to make a brief opening statement before the Secretary's 
comment. And you're next. If you would----
    Senator Tester. No, I'm going to save all my questions for 
the grilling.
    Senator Alexander. Okay. That sounds pretty fearsome.
    Senator Merkley.
    Senator Merkley. I look forward to the Secretary's 
testimony.
    Senator Alexander. Thank you, Senator Merkley.
    Senator Shaheen.
    Senator Shaheen. I also will wait for questions.
    Senator Alexander. Thank you, Senator Shaheen.
    And we'll have ample opportunity for whatever questions 
you'd like to ask, and I want to thank the Senators for such 
good attendance today.

            SENATOR HELLER'S LETTER REGARDING YUCCA MOUNTAIN

    Senator Heller has asked me to include in the record a 
letter to Senator Feinstein and me about Yucca Mountain. I know 
he feels strongly about it. I wanted to make sure his views are 
part of the record today.
    [The letter follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Feinstein. Did you also want to put Leahy's 
statement in the record?
    Senator Alexander. I will also put Senator Leahy's opening 
statement in the record. Thank you, Senator Feinstein.
    We'll now turn to Secretary Perry to provide his testimony. 
Without objection, your full statement will be included in 
today's hearing record. I know we've invited Alison Doone, the 
acting Chief Financial Officer of the department, to sit next 
to Secretary Perry at the witness table.
    Secretary Perry, welcome. You may proceed.

                  SUMMARY STATEMENT OF HON. RICK PERRY

    Secretary Perry. Mr. Chairman, thank you. It's an honor to 
be here before you, and Ranking Member Feinstein as well, and 
each of you that are on the dais. Thank you. Thank you for your 
public service.
    I am here today to discuss President Trump's fiscal year 
2018 budget request.
    And Mr. Chairman, as you stated, it is a distinct privilege 
for me to be sitting here in front of you. Yesterday was the 
first time I ever sat on this side of the desk. And I like your 
side better.
    [Laughter.]
    Secretary Perry. But, anyway, it is a privilege to be here. 
And as a former legislative appropriator and as a governor, I 
have a very real and deep respect for the budget writing 
process.
    I know the important work that you're about, that we're 
undertaking together, and I look forward to working with you to 
finalize a budget that we can all be proud of, and that serves 
the taxpayers of this country well.

                         NATIONAL LABORATORIES

    It's been three and a half months since I took my hand off 
the Bible and was sworn in as Secretary of Energy, and I have 
seen firsthand as a number of you have accompanied me to 
different laboratories and facilities that the department 
oversees, being involved both domestically and internationally. 
This department makes a difference. I travel around the country 
to many of the national labs, some of them based in your 
districts. I met with the brilliant minds who are driving their 
missions, and I've look forward to visiting every one of them, 
Senator. And these labs are truly our national treasures. They 
are the future of innovation in this country. I have been in 
absolute awe of the diversity, the scope of the department's 
mission, the consequential work that we are charged with 
undertaking.

                        INTERNATIONAL ENGAGEMENT

    I've also traveled internationally. Senator Shaheen and I 
went to G7 in Rome, I went to Beijing to the Clean Energy 
Mission Innovation Ministerial. I had the opportunity to visit 
Japan, as you shared, Mr. Chairman, met with their leaders, the 
stakeholders, about the future of energy in that country. 
They're our energy partners. On a very somber note, I toured 
the Fukushima site and recognized the monumental challenge that 
they have before them.
    Coincidentally, the trip to Asia began on the day that 
President Trump announced that he would officially withdraw the 
United States from the Paris Agreement, and I delivered his 
message to the world, that even though the U.S. would no longer 
be a part of that Paris Agreement, we are still and we will 
continue to be a leader in clean energy technology, and we're 
committed to that mission more than ever.

                           SECRETARY'S GOALS

    The Department of Energy does many things very well. 
America has remained on the forefront of technology for over 40 
years because of the amazing men and women that work in our 
headquarters and our national labs, overseas for that matter. 
They wake up every day knowing, as you mentioned, that they 
make a real difference. I told them on my first day that the 
greatest job I ever had was being the governor of the State of 
Texas. But after working here, after seeing what these 
individuals had the opportunity to do, I have come to realize 
that the Secretary of Energy, job is now the coolest job I've 
ever had. And under my leadership, our experts at DOE will 
continue their work for the benefit of every American and our 
allies as well.
    As Secretary of Energy, I am also a member of the National 
Security Council. This council's supported by DOE and its 
mission to keep us safe. President Trump's fiscal year 2018 
budget request for the Department of Energy provides $28 
billion to advance our key missions and focuses on important 
investments, including ensuring the safety and effectiveness of 
our nuclear weapons arsenal, protecting our energy 
infrastructure from cyber attacks and other threats, achieving 
Exascale computing and focusing the amazing network of our 
national laboratories on early stage research and development.
    My goals are straightforward. Advance our Nation's critical 
energy and scientific R&D missions, strengthen our nuclear 
security, and fulfill our environmental management commitments.

                             NUCLEAR WASTE

    I just painted you a very rosy picture. Pretty bright 
picture. Lots of good news. But there are other hard 
conversations that we need to have. As you're well aware, there 
are approximately 120 sites in 39 States that are storing spent 
nuclear fuel or high level waste. In fact, all but five members 
of this committee have that waste in their State. We have a 
moral and national security obligation to come up with a long-
term solution, finding the safest repositories available.
    This is a sensitive topic for some, but we can no longer 
kick the can down the road. As a former legislative 
appropriator, as an agency head, as a governor, I understand 
following the rule of law. I've been instructed to move towards 
that goal. The President's budget requests $120 million to 
resume licensing activity at Yucca Mountain, nuclear waste 
repository, and to initiate a robust interim storage program. 
Congress has spent $5 billion taxpayer dollars in another area 
that I want to specifically address in my opening remarks, and 
that is, in MOX.

                              MOX FACILITY

    This project is way over budget, and from my perspective, 
no end in sight. The Army Corps of Engineers estimated a cost 
of $17.2 billion, total, with a 2048 completion date. The money 
appropriated for this project is money that we could be using 
toward other priorities, like national security or cleanup of 
sites in your States. There's a better, cheaper, proven way to 
dispose of plutonium. In fact, we're already doing it, and I 
look forward to having an ongoing dialogue with many of you 
about these tough but important issues in the days and months 
to come.

                    FISCAL YEAR 2018 BUDGET REQUEST

    This budget proposal makes some difficult choices, but it's 
paramount that we execute our fiduciary responsibility to the 
American taxpayer. The President's proposal prioritizes the 
core mission of the department by consolidating duplications 
within our agency in order to respect the American taxpayer. He 
deserves credit for beginning this discussion about how we most 
wisely spend our scarce Federal resources.
    As for me, this isn't my first rodeo. During my 14 years as 
governor, I managed under some pretty tight budget. Governor--
we didn't always have blue skies and smooth sailing in Texas. 
There were some real challenges from a budget standpoint during 
my 14 years as governor, but we dealt with that. And I 
respectfully ask you to take that experience and that 
background into consideration as we work towards managing this 
agency.
    When we were faced with limited resources, Texas became a 
very shiny example of energy growth, of economic growth, of 
higher educational standards, and important improvements to our 
environment. We did it by setting clear goals, by managing the 
best and the brightest to achieve these goals, and by spending 
those scarce resources wisely. With your help, I believe that 
we can attain many positive outcomes at the Department of 
Energy on behalf of the American people.

                             NUCLEAR WASTE

    So, Mr. Chairman, in conclusion, I want to add some clarity 
to a statement I made yesterday in front of the House, if I 
could, just a short clarification on some remarks I made 
yesterday about nuclear waste and interim storage. And I want 
to be crystal clear with this committee and with others that 
while there are a number of options that we've talked about on 
how to deal with these issues, no decision has been made at 
this time with respect to the timing or location, for that 
matter, of waste storage.
    We have no--there are no plans. I think it's appropriate to 
say, there are no plans for interim storage at this particular 
time, in New Mexico or Nevada or Texas or any other site, and 
any such plans would, obviously, require coordination with you, 
with the Federal, State, and local officials.
    The waste issue is a dilemma that we have a responsibility 
to address. And yesterday what I was doing was attempting to 
convey my interest in working with Congress to bring resolution 
to this issue, and you know, that's all I was saying. So my 
point is, let's work together. Let's find some solutions to 
these challenges that vex us, that have been in front of us for 
a while, and I'm eternally optimistic, sir, that we can do that 
in a way that serves this great country.
    [The statement follows:]
                 Prepared Statement of Hon. Rick Perry
    Chairman Alexander, Ranking Member Feinstein, and Members of the 
Subcommittee, it is an honor to appear before you today to discuss the 
President's fiscal year 2018 Budget Request for the Department of 
Energy (``the Department'' or ``DOE'').
    As you know, I was confirmed by the United States Senate on March 
2, 2017. It is a privilege and an honor to serve as the 14th Secretary 
of Energy and fulfill this important role critical to our Nation's 
energy and scientific pursuits along with assuring our nuclear 
readiness.
    As a former legislative appropriator and Governor, I'm keenly aware 
of the budget writing process and only wish I had been confirmed by the 
Senate earlier so I could be a full participant in crafting this 
proposal.
    The President's proposal focuses our priorities and reigns in 
spending.There is much the Department does well and stays within 
budget, and unfortunately there are places we need to be better 
stewards of our financial resources. This budget proposal makes some 
difficult choices. I look forward to explaining our priorities and 
working with you to continue the important mission of the Department of 
Energy.
    In short, the President's fiscal year 2018 $28 billion Budget 
Request for the Department of Energy (``Budget'') advances our key 
missions through significant investments to modernize our nuclear 
weapons arsenal, protect our energy infrastructure from cyber and other 
attacks, achieve exascale computing, and address our moral obligations 
regarding nuclear waste management and the Nation's nuclear legacy.
    The Department's world-leading science and technology enterprise 
also generates the innovations to fulfill our mission. Through our 17 
national laboratories, we engage in cutting-edge research that expands 
the frontiers of scientific knowledge and generates new technologies to 
address our greatest challenges. While most of this is in the energy 
field, the DOE also does work to support the health sector with 
research and recently launched a program with Veterans Affairs to use 
our computing ability to assist our Nation's veterans.
    The Budget focuses the intellectual prowess of our scientists and 
engineers on the development of technologies that the ingenuity and 
capital of America's entrepreneurs and businesses can convert into 
commercial applications and products that improve the lives and 
security of all Americans.
               restoring the nuclear security enterprise
    The Budget fulfills the President's vision of rebuilding and 
restoring our Nation's security through robust investments in the 
Department's nuclear security mission. The Budget provides $13.9 
billion for the National Nuclear Security Administration, $1 billion or 
8 percent above the fiscal year 2017 Enacted level.
    As a participant on the National Security Council, the Department 
has a unique role in our Nation's security. I undertake these 
responsibilities with the utmost gravity.
    One of my key duties as Secretary of Energy is to annually certify 
to the President that the American nuclear weapons stockpile remains 
safe, secure, and reliable, without the need for underground explosive 
nuclear testing. The Budget includes $10.2 billion for Weapons 
Activities to maintain and enhance the safety, security, and 
effectiveness of the U.S. nuclear weapons stockpile. This $996 million 
increase over fiscal year 2017 supports modernizing our nuclear weapons 
enterprise and meets Department of Defense requirements in accordance 
with the President's Memorandum on Rebuilding the Armed Forces.
    The Budget supports our ongoing Life Extension Programs (LEP) and 
Major Alterations, which includes $4.0 billion for Directed Stockpile 
work, a $669 million increase. Funding for the W76-1 warhead LEP 
directly supports the Navy and will keep the LEP on schedule and on 
budget to complete production in fiscal year 2019. An increase of $172 
million, or 28 percent, for the B61-12 LEP will keep us on schedule 
delivering the First Production Unit (FPU) in fiscal year 2020 to 
consolidate four variants of the B61 gravity bomb and improve the 
safety and security of the oldest weapon system in our nuclear arsenal.
    The Budget also supports the Air Force's Long-Range Stand-Off 
program through an increase of $179 million or 81 percent from fiscal 
year 2017 Enacted for the W80-4 LEP, to deliver the first production 
unit in fiscal year 2025 of the cruise missile warhead. We also 
increase funding by $51 million or 18 percent for the W88 Alteration 
370, to provide the scheduled first production unit in fiscal year 
2020.
    The Budget for Weapons Activities also increases investments to 
modernize our nuclear infrastructure. For example, we include $663 
million, an $88 million increase from fiscal year 2017, for 
construction of the Uranium Processing Facility needed to replace aging 
facilities at the Y-12 National Security Complex, as well as $98 
million, up $83 million from fiscal year 2017 Enacted, to accelerate 
the replacement of old and unfit buildings at the Albuquerque Complex.
    The Weapons Activities Budget request also includes $161 million, a 
$66 million increase, for NNSA collaboration with the Office of Science 
on the development of capable exascale computer systems, which I 
address below.
    Moving on to NNSA's Naval Reactors program, the Department has the 
ongoing responsibility to provide militarily effective nuclear 
propulsion plants for Navy vessels and to ensure their safe, reliable 
and long-lived operation. The Budget provides $1.5 billion to support 
the safe and reliable operation of the Navy's nuclear-powered fleet and 
continuation of the Columbia-class submarine program, refueling of the 
Land-Based Prototype reactor, and the Spent Fuel Handling 
Recapitalization Project.
    The Budget also includes $1.8 billion for the Defense Nuclear 
Nonproliferation (DNN) program to reduce global threats from nuclear 
weapons. This critical national security program prevents the spread of 
nuclear and radiological materials, advances technologies that detect 
nuclear and radiological proliferation worldwide, and eliminates or 
secures inventories of surplus materials and infrastructure usable for 
nuclear weapons.
    The Budget proposes to terminate the Mixed Oxide Fuel Fabrication 
Facility project, providing $270 million for use toward an orderly and 
safe closure of the project and $9 million to develop the pre-
conceptual design for the dilute and dispose approach to plutonium 
disposition. This is an example of a significant cost and schedule 
overrun that should have set off alarms earlier in the project and 
should have been canceled.
    We will, in an orderly and responsible manner, begin to wind down 
the project. My staff, in coordination with other stakeholders, is 
already reviewing alternative, enduring missions that could potentially 
utilize existing infrastructure and expertise.
    The Budget also provides $277 million for Nuclear Counterterrorism 
and Incident Response, $5 million above fiscal year 2017 Enacted, to 
work domestically and around the world to improve our ability to 
respond to radiological or nuclear incidents, in conjunction with other 
agencies in a broader U.S. Government effort.
    Finally, the Budget for NNSA includes $419 million for the Federal 
workforce at the NNSA. This $31 million increase is essential to 
ensuring our world-class workforce of dedicated men and women can 
effectively oversee NNSA's critical national security missions.
                     securing against cyber threats
    Among the most critical missions at the Department is to develop 
science and technology that will assure Americans of a resilient 
electric grid and energy infrastructure. Protecting these assets means 
it has to be resilient and hardened to defend against the evolving 
threat of cyber and other attacks. Consumers need to trust when they 
flip the switch, their lights will come on. Unfortunately, cyberattacks 
pose an ever-increasing threat to the Nation's networks, data, 
facilities, and infrastructure.
    As utilities and independent power producers and operators have 
integrated advanced digital technologies to automate and control 
physical functions in their energy systems to improve performance, 
sophisticated cyber threats have increased. Nation-States, criminals, 
and terrorists conduct sophisticated probes of energy systems that can 
be used to exploit cyber vulnerabilities that disrupt or destroy energy 
systems.
    To ensure robust cybersecurity programs across the energy sector, 
the Budget provides funding in multiple programs. In the Office of 
Nuclear Energy, we add a focus in the $20 million Light Water Reactor 
Sustainability program to research new technologies to address nuclear 
power plant cybersecurity, and we provide $17 million for cybersecurity 
at the Idaho National Laboratory (INL). In the Office of Fossil Energy, 
we provide $8 million for our sensors and controls research program 
seeking early-stage breakthroughs to help secure power plants against 
cyber-attacks.
    Finally, the Budget includes $42 million for energy delivery system 
cybersecurity in Electricity Delivery and Energy Reliability, and a 
renewed focus to take steps to make a difference within 2 years in the 
cybersecurity of our Nation's power grid. Our budget funds early stage 
activities that improve cybersecurity and resilience of the grid in 
order to harden and evolve critical grid infrastructure. We focus on 
early stage R&D at national laboratories to develop the next generation 
control systems and components, devices and systems with engineered-in 
cybersecurity features; and we fund a new activity to develop a 
continuous monitoring capability that will significantly increase our 
awareness and ability to prevent and respond to these types of events.
    We also cannot ignore the risks to the Department's own science, 
technology, and nuclear security infrastructure. Across the 
Department's programs and sites, we are taking major steps to safeguard 
our assets against cyber threats. The Budget includes robust funding to 
secure our own networks. For example, the Budget increases funding for 
the Chief Information Officer by $17 million from fiscal year 2017 to 
modernize infrastructure and improve cybersecurity across the internal 
DOE IT enterprise. We also increase funding for cybersecurity in the 
National Nuclear Security Administration to $150 million to step up 
security for our nuclear security networks. In the Environmental 
Management program, we consolidated $43 million for cybersecurity into 
a new budget to ensure the security at our nine major cleanup sites.
    Cybersecurity is one of my key goals at the Department, and the 
Budget will help us take concrete steps to harden our systems and our 
infrastructure.
                           exascale computing
    Turning to the Department's role in science and technology, the 
United States has long led the way in computing, dating back to 
invention of the first computers and continuing with world-leading 
machines at our national laboratories. Our leadership in developing and 
building the world's fastest computers has faced increasingly fierce 
global competition in the last decade. Maintaining the Nation's global 
primacy in high-performance computing is more critical than ever to 
ensure our national security, our continuing role as a science and 
innovation leader, and our economic prosperity.
    The Budget includes $508 million to accelerate development of an 
exascale computing system, including $347 million in the Office of 
Science (Science) and $161 million in NNSA. This unprecedented 
investment, which is $249 million--or 96 percent--above the fiscal year 
2017 level, reflects the Department's intention to deliver an exascale 
machine in 2021 and a second machine with a different architecture by 
2022. To get there, the Science/NNSA partnership will focus on hardware 
and software technologies needed to produce an exascale system, and the 
critical DOE applications needed to use such a platform.
    By accelerating our progress towards exascale computing, we will 
take back American primacy in computing science and technology. This 
world-leading exascale program will bolster our national security by 
supporting the nuclear stockpile, while also supporting the next 
generation of scientific breakthroughs not possible with today's 
computing systems.
    addressing the obligation of nuclear waste and legacy management
    The President's fiscal year 2018 Budget Request for the Department 
deals with the issue of nuclear waste disposal and supports 
accelerating clean-up of our Cold War legacy.
         addressing the imperative of nuclear waste management
    For too many years, the prior Administration has literally kicked 
the can down the road on nuclear waste.
    The Budget Request takes significant steps forward for the country 
in other critical areas. First, recognizing that we must move ahead in 
fulfilling the Federal Government's responsibility to dispose of the 
Nation's nuclear waste, the Budget includes $120 million, including $30 
million in defense funds, to resume licensing for the nuclear waste 
repository at Yucca Mountain and initiate a robust interim storage 
program.
    The Budget devotes $110 million to restart Nuclear Regulatory 
Commission (NRC) licensing activities for the nuclear waste repository 
at Yucca Mountain, including funding for management, site operations 
and maintenance, as well as technical, scientific, legal and other 
support.
    In addition, the Budget includes $10 million to initiate a robust 
interim storage program that complements the nuclear waste repository 
by developing a capability for earlier acceptance of spent nuclear fuel 
to accelerate removal from sites in 39 States across the country. An 
interim storage capability also adds flexibility to the system that 
will move materials from sites across the country to its ultimate 
disposition.
    By restarting the long-stalled licensing process for Yucca Mountain 
and committing to establishing interim storage capability for near-term 
acceptance of spent nuclear fuel, our Budget will accelerate 
fulfillment of the Federal Government's obligations to address nuclear 
waste, enhance national security, and reduce future burdens on American 
taxpayers. This also will increase public confidence in nuclear safety 
and security, thus helping nuclear energy to remain a significant 
contributor to the country's energy needs for generations to come.
               fulfilling legacy cleanup responsibilities
    The Budget also includes $6.5 billion for Environmental Management 
(EM), $89 million above the fiscal year 2017 Enacted level, to address 
its responsibilities for the cleanup and disposition of excess 
facilities, radioactive waste, spent nuclear fuel, and other materials 
resulting from five decades of nuclear weapons development and 
production and Government-sponsored nuclear energy research.
    To date, EM has completed cleanup activities at 91 sites in 30 
States and Puerto Rico, and is responsible for cleaning up the 
remaining 16 sites in 11 States--some of the most challenging sites in 
the cleanup portfolio.
    New in the Budget is $225 million to address specific high-risk 
contaminated excess facilities at the Y-12 National Security Complex 
and the Lawrence Livermore National Laboratory.
    The Budget includes $1.5 billion, $4 million above fiscal year 
2017, for the Office of River Protection at the Hanford Site, for 
continued work at the Hanford Tank Farms and to make progress on the 
Waste Treatment and Immobilization Plant. This budget will continue 
progress toward important cleanup required by the Consent Decree and 
Tri-Party Agreement to include a milestone to complete hot 
commissioning of the Low Activity Waste Facility by December 31, 2023. 
The Budget also includes $800 million to continue cleanup activities at 
Richland, including continued K-Area decontamination and 
decommissioning remediation and the K-West Basin sludge removal 
project.
    For Savannah River, the Budget provides $1.4 billion, $214 million 
above fiscal year 2017, to support activities at the site including the 
Liquid Tank Waste Management Program, continued construction and 
commissioning to achieve startup of the Salt Waste Processing Facility 
in 2018, continued construction of the Saltstone Disposal Unit #7, and 
support for facilities that receive and store nuclear materials.
    The Waste Isolation Pilot Plant (WIPP) is essential for the 
disposition of transuranic defense-generated waste across the DOE 
complex, and the Budget provides $323 million to safely continue waste 
emplacement at WIPP. The Budget Request will continue WIPP operations, 
including waste emplacements, shipments, and maintaining enhancements 
and improvements, and progress on capital asset projects, including $46 
million for the Safety Significant Confinement Ventilation System and 
$19.6 million for the Exhaust Shaft. These steps will increase airflow 
in the WIPP underground for simultaneous mining and waste emplacement 
operations.
    The Budget includes $359 million, $30.9 million below fiscal year 
2017 enacted level, to continue major clean-up projects at the Idaho 
site, such as the Integrated Waste Treatment Unit, and to process, 
characterize, and package transuranic waste for disposal at offsite 
facilities. It provides $390 million for Oak Ridge, $108 million below 
fiscal year 2017, to continue deactivation and demolition of remaining 
facilities at the East Tennessee Technology Park, continue preparation 
of Building 2026 to support processing of the remaining U-233 material 
at the Oak Ridge National Laboratory, and support site preparation 
activities for the Outfall 200 Mercury Treatment Facility at the Y-12 
National Security Complex.
    For Portsmouth, the Budget includes $418 million, $36 million above 
fiscal year 2017, to continue progress on the deactivation and 
decommissioning project at the Portsmouth Gaseous Diffusion Plant, safe 
operation of the Depleted Uranium Hexafluoride Conversion Facility, and 
continue design and construction activities at the On-Site Waste 
Disposal facility. And at Paducah, the Budget includes $270 million to 
continue ongoing environmental cleanup and depleted uranium 
hexafluoride (DUF6) conversion facility operations at the Paducah site. 
In addition, the fiscal year 2018 Budget Request supports activities to 
continue the environmental remediation and further stabilize the 
gaseous diffusion plant.
    Together, these investments for Environmental Management will make 
significant progress in fulfilling our cleanup responsibilities while 
also starting to address our high-risk excess facilities at NNSA sites.
                 refocusing priorities on core missions
    The Budget refocuses the Department's energy and science programs 
on early-stage research and development at our national laboratories to 
advance American primacy in scientific and energy research in an 
efficient and cost-effective manner. The Budget funds $6.4 billion in 
early-stage R&D while reducing later-stage research, development, 
demonstration, and deployment programs by $3.1 billion from the fiscal 
year 2017 Enacted levels.
    As part of transitioning later-stage R&D, demonstration, and 
deployment responsibilities to the private sector and the States, the 
Budget terminates five Energy Innovation Hubs and five Clean Energy 
Manufacturing Institutes, which together constitute an annual taxpayer 
burden of over $187 million. The Budget eliminates the Supercritical 
Transformational Electric Power demonstration program and SuperTruck 
II, together saving $44 million annually, and terminates deployment 
activities like Weatherization and the State Energy Program in the 
Office of Energy Efficiency and Renewable Energy, saving a total of 
$265 million.
    Also in line with Administration priorities, the Budget terminates 
the Advanced Research Projects Agency--Energy, known as ARPA-E, and the 
Department's Loan Programs, while maintaining necessary Federal staff 
to oversee existing awards and loans. We also close the Office of 
Energy Policy and Systems Analysis, to avoid duplicative efforts 
already accomplished by the program offices. Termination of these three 
programs will save over $300 million in fiscal year 2018 alone while 
significantly reducing financial risk to the taxpayer moving forward.
                          focus on innovation
    The fiscal year 2018 Budget focuses its investments on the basic, 
early-stage R&D conducted by the scientists and engineers at our 17 
national laboratories who are constantly on the path to developing the 
next great innovations that can transform society, and bring forth a 
new era of prosperity for the American people. The Budget provides $6.4 
billion, $4.5 billion in the Office of Science and $1.9 billion in 
energy research and development programs, with a renewed focus on 
cutting- edge innovation and transitioning those breakthroughs to the 
private marketplace.
    The Budget consolidates programs focused on bringing technologies 
to the market in the Office of Technology Transitions. Through 
concerted effort and coordination with our labs, this will reduce costs 
to the taxpayer while at the same time providing a robust technology 
transfer program to transfer breakthroughs from the national 
laboratories to the private sector.
Nuclear Energy
    The Budget provides $703 million for Nuclear Energy, $313 million 
below the fiscal year 2017 level, to continue innovating new and 
improved ways to generate nuclear power. The budget refocuses funding 
on early-stage research and development, such as the Nuclear Energy 
Enabling Technologies program, that enables innovation driven by the 
private sector. While the Budget ends the Consortium for Advanced 
Simulation of Light Water Reactors (CASL), it increases funds for 
Nuclear Energy Advanced Modeling and Simulation (NEAMS) by $7 million 
to integrate VERA, the virtual reactor developed by CASL, and RELAP-7, 
a safety analysis and simulation tool developed at the INL, into the 
existing NEAMS program.
    From 2012 through 2017, the Department spent $390 million on the 
Small Modular Reactors (SMR) Licensing Technical Support program. With 
NuScale Power submitting its application to the Nuclear Regulatory 
Commission and the completion of planned activities in fiscal year 
2017, the Department closes the SMR Licensing Technical Support program 
having achieved its goal to commercialize SMR technology. Given the 
ongoing promise of SMR technology, the fiscal year 2018 Budget includes 
$20 million for early-stage R&D supporting advanced SMR designs.
    Finally, the Budget for Nuclear Energy also supports robust 
safeguards and security funding of $133 million--a $4 million 
increase--for protection of our nuclear energy infrastructure and 
robust infrastructure investments at INL facilities.
Fossil Energy Research and Development
    The Fossil Energy Research and Development program advances 
transformative science and innovative technologies which enable the 
reliable, efficient, affordable, and environmentally sound use of 
fossil fuels. Fossil energy sources currently constitute over 80 
percent of the country's total energy use and are critical for the 
Nation's security, economic prosperity, and growth. The fiscal year 
2018 Budget focuses $280 million on cutting-edge fossil energy research 
and development to further our energy security, advance strong domestic 
energy production, and support America's coal industry through 
innovative clean coal technologies.
    In fiscal year 2018, we invest $30 million in a new initiative to 
repower coal-fired plants through research on advanced technologies and 
systems that improve the reliability and efficiency of existing coal 
units and incorporate new, advanced technology components and systems. 
We also will support research on coal combustion to help support 
potential U.S. coal exports, as well as research on carbon utilization 
efforts to develop materials and chemicals for new business 
opportunities, in support of a strong American energy sector and 
vibrant coal industry.
    As part of the Department's effort to operate more efficiently, the 
Budget proposes the initial stages of footprint consolidation for the 
National Energy Technology Laboratory. In a phased approach, we propose 
to consolidate NETL's Albany, Oregon site into the NETL's Eastern sites 
and initiate a Mission Alignment study in fiscal year 2017 to evaluate 
alternatives for the consolidation of NETL's eastern sites.
Energy Efficiency and Renewable Energy
    The Energy Efficiency and Renewable Energy budget funds $636 
million to support research at our national laboratories to drive 
energy innovations in renewable energy, next-generation transportation, 
and energy efficiency.
    The fiscal year 2018 investments support development of battery 
technologies and advanced combustion engines, and new science and 
technology for developing biofuels. The Budget funds research into the 
underpinnings of future generations of solar photovoltaic technology, 
into the design and manufacturing of low-specific power rotors for tall 
wind applications, and on wind energy grid integration and 
infrastructure challenges.
    The Budget also funds early-stage R&D for advanced manufacturing 
processes and materials technologies. These efforts, combined with the 
research that leverages the unique high-performance computing assets in 
the national laboratories, we can drive the breakthroughs that will 
promote economic growth and manufacturing jobs in the United States.
Electricity Delivery and Energy Reliability
    All power generation, regardless of the fuel, relies on the power 
grid to deliver electricity to our homes and businesses across the 
Nation. The Budget provides $120 million for Electricity Delivery and 
Energy Reliability to support research and development at the national 
laboratories to develop technologies that strengthen, transform, and 
improve energy infrastructure so that consumers have access to 
reliable, secure, and clean sources of energy.
    In addition to the cybersecurity program described earlier, the 
Budget funds foundational research to ensure the reliability and 
resiliency of the U.S. electric grid, to support modernization of the 
distribution of electric power, and to advance the state of the science 
and technology underpinning grid energy storage, transformers, and 
other grid components.
                     world-leading science research
    The Department of Energy is the Nation's largest Federal supporter 
of basic research in the physical sciences, and the President's fiscal 
year 2018 Budget provides $4.5 billion for the Office of Science to 
continue and strengthen American leadership in scientific inquiry. By 
focusing funding on early-stage research, this Budget will ensure that 
the Department's National Laboratories continue to be the backbone of 
American science leadership by supporting cutting-edge basic research, 
and by building and operating the world's most advanced scientific user 
facilities--which will be used by over 27,000 researchers in fiscal 
year 2018.
    We provide $722 million for Advanced Scientific Computing Research, 
an increase of $75 million above fiscal year 2017. This funding will 
continue supporting our world-class high-performance computers that 
make possible cutting-edge basic research, while devoting $347 million 
in the Office of Science to reflect the Department's intention to 
accelerate our achievement of exascale computing by 2021. This focused 
effort will drive the innovations necessary for computing at exascale 
speeds, resulting in computing systems at unprecedented speeds at 
Argonne National Laboratory in 2021 and Oak Ridge National Laboratory 
in 2022.
    The Budget also provides $1.6 billion for Basic Energy Sciences, 
supporting core research activities and the Energy Frontier Research 
Centers. We will continue construction of the Linac Coherence Light 
Source-II at SLAC National Accelerator Laboratory and operations of the 
light sources across the DOE science complex, supporting research 
across the Nation and ensuring our continued world leadership in light 
sources and the science they make possible.
    The Budget also provides $673 million for High Energy Physics, 
including $54.9 million for construction of the Long Baseline Neutrino 
Facility and Deep Underground Neutrino Experiment, $5 million above 
fiscal year 2017. By supporting the highest priority activities and 
projects identified by the U.S. high energy physics community, this 
program will continue cutting-edge pursuit to understand how the 
universe works at its most fundamental level.
    The Budget for the Office of Science provides $310 million for 
Fusion Energy Sciences, including $247 million for domestic research 
and fusion facilities and $63 million for the ITER project. For Nuclear 
Physics, the budget provides $503 million to discover, explore, and 
understand nuclear matter, including $80 million for continued 
construction of the Facility for Rare Isotope Beams and operations of 
facilities, including the newly-upgraded Continuous Electron Beam 
Accelerator Facility. For Biological and Environmental Research the 
Budget includes $349 million to support foundational genomic sciences, 
including the Bioenergy Research Centers and to focus on increasing the 
sensitivity and reducing the uncertainty of earth and environmental 
systems predictions.
                      strategic petroleum reserve
    In addition to our nuclear security responsibilities, the 
Department of Energy, in conjunction with other Federal agencies, is 
responsible for ensuring the Nation's energy security. The Strategic 
Petroleum Reserve (SPR), one component of that effort, protects the 
U.S. economy from disruptions in critical petroleum supplies and meets 
the U.S. obligations under the International Energy Program. The Budget 
includes $180 million, $43 million below fiscal year 2017 Enacted, to 
support the Reserve's operational readiness and drawdown capabilities.
    Looking forward, the President's Budget proposes to sell 
approximately 270 million barrels of SPR crude oil by 2027, roughly 
half of the remaining SPR inventory after all sales currently 
authorized by law are completed, resulting in estimated receipts of $1 
billion by fiscal year 2019 and $17 billion through 2027. The SPR 
program will conduct a comprehensive analysis to determine the sites to 
be decommissioned as the SPR footprint is reduced from four to two 
sites. The Budget continues the sale of SPR oil for the Energy Security 
and Infrastructure Modernization Fund authorized by the Bipartisan 
Budget Act of 2015 to support an effective modernization program for 
the SPR, but at half the previous funding level because of the 
anticipated closure of two SPR storage sites.
    Finally, as the Northeast Gasoline Supply Reserve (NGSR) is 
operationally ineffective and not cost-efficient as a regional product 
reserve, the President's Budget proposes to liquidate the NGSR and sell 
its one million barrels of refined petroleum product in fiscal year 
2018, resulting in an estimated $69 million in receipts.
                    power marketing administrations
    The Budget includes $82 million for the Power Marketing 
Administrations, the same as fiscal year 2016 Enacted. The Budget also 
proposes the sale of the transmission assets of the Western Area Power 
Administration (WAPA), the Bonneville Power Administration (BPA), and 
the Southwestern Power Administration (SWPA). The Budget also proposes 
to repeal the $3.25 billion emergency borrowing authority for WAPA 
authorized by the American Recovery and Reinvestment Act of 2009.
                               conclusion
    In conclusion, I reaffirm my commitment to ensure that the 
Department of Energy, through its National Laboratories, will continue 
to support the world's best enterprise of scientists and engineers who 
create innovations to drive American prosperity, security and 
competitiveness for the next generation. The President's fiscal year 
2018 Budget Request for the Department of Energy positions us to take 
up that challenge while continuing to ensure our national security.
    In my opening I mentioned my time as Governor of the State of 
Texas. Over my 14-year tenure, I proposed seven budgets. Some had 
spending increases. Others had deep spending cuts to deal with economic 
downturns and uncertainties. Every one of them directed the spending of 
billions of dollars of our taxpayer's dollars.
    As we move forward over the coming weeks and months, I look forward 
to working with you and your colleagues in the United States House of 
Representatives. I am committed to ensuring DOE is run efficiently, 
effectively, and we accomplish our mission driven goals.
    Thank you, and I look forward to answering your questions.

    Senator Alexander. Thank you, Mr. Secretary.
    We'll now begin a round of 5-minute questions, and I'll 
begin.

                        FISCAL YEAR 2018 BUDGET

    Presidential budgets have a pretty bad record in this 
Congress, whether they come from democrats or republicans, and 
this one was especially bad. And what I try to do is look 
within the budget to see if there's anything good in it at all. 
Not much here, and I don't know why Presidents send secretaries 
up here to defend such budgets. I used to be in that shape when 
I was education secretary, and somebody in the back office 
somewhere would write the budget and then send me up to defend 
it, and I never appreciated it. I don't want a response from 
you on that, but I did find in this budget one area that I want 
to compliment you for and ask you to comment on.
    The budget request prioritizes super computing, recommends 
$508 million, including $347 from the Office of Science, $161 
million from NNSA (National Nuclear Safety Administration), and 
delivery of at least one Exascale system in 2021.

                             SUPERCOMPUTING

    As I said before, under President Obama's administration 
and bipartisan support from this committee, supercomputing was 
a top priority. Senator Bingaman really got us started on it 10 
or 12 years ago, sent me to Yokohama to look at the Japanese 
computer. And what our government did since then was create a 
leadership computing facility, and rather than every little 
agency having a computer, we put within our laboratories a 
combined computer strategy, we built some big ones, and we've 
got some of the best people in the world at many different 
laboratories who know how to operate them. Despite that, over 
the last weekend, China--the list of the most powerful 
supercomputers was released. China maintained two top places, 
the top two. Switzerland pushed Titan down from fourth to 
third. We still have five of the top ten.
    So my first question about computers is could you talk 
about your strategy for funding them, and my second is, while 
you were at Oak Ridge, you were told that 20 percent of our 
supercomputer time is spent helping other agencies. And one 
proposal, one example of that was helping Veterans 
Administration. Another proposal was to help CMS, Center for 
Medicaid and Medicare Services, to apply the same techniques we 
apply when we look for terrorists, and look through Medicare 
and Medicaid claims and find waste, fraud, and abuse, since the 
Economist magazine has said that one out of four dollars billed 
for Medicare and Medicaid is swindled, and that drug smugglers 
are moving in to Medicare and Medicaid fraud and abuse because 
it is safer and more profitable.
    So those are my two questions in--you have two minutes.
    Secretary Perry. Yes, sir.
    Senator Alexander. What can you say about funding in the 
future and what can you say about using the computers to help 
with waste, fraud, and abuse?
    Secretary Perry. Yes, sir.
    Well, Mr. Chairman, having been a governor, you understand 
the--I think governor's budgets and President's budgets a lot 
of times have the same challenges. So I understand that. But, 
more importantly, having been an appropriator, I just want to, 
again, remind folks that I've had that experience, too, and 
that I know this is a starting point, and that this process is 
one that I respect and I will follow and work very, very 
closely with you, going forward.
    So let me just address this issue of Exascale computing, 
and I think it is----
    Senator Alexander. Just so you know, I'm going to try to 
keep to five minutes, my time----
    Secretary Perry. Yes, sir.
    Senator Alexander [continuing]. So others do as well. So 
please go ahead.
    Secretary Perry. Yes, sir.
    I think it's important for us around this room and outside 
of this room to understand the importance of America 
maintaining its super computing capability. Attaining this 
Exascale, this next level, is incredibly important. And the 
idea that China has the two fastest, and quite frankly, it is 
pretty disappointing to me, as an American, that the Swiss are 
number three. And no offense to the Swiss, but the idea that 
somehow or another we don't even get on the podium, so to 
speak, when it comes to our ability to be in the super 
computing game. And you know, five of those, I think six of 
those--of the top ten, we have. But our commitment to that is 
clear. This budget makes it clear. Having talked to the members 
of the committee and the members of Congress, and the 
Administration, they understand how important this is, and it 
is not just about being able to stand up and wave the flag and 
say we've got to--you know, we're number one. It's about being 
able to address the challenges.
    Our computing capacity and the speed of which we're able to 
do that is going to be the difference in whether we, you know, 
find the next big issues that challenge us as a country or not. 
So the commitment to Exascale, 2021 we'll be going to Argonne, 
2022 we'll be coming to your home State and to Oak Ridge. And 
it's completely different architecture. This is the--this is 
the next generation past Exascale. So I think what's 
important----
    Senator Alexander. Maybe we can come back to that, Mr. 
Secretary. As I said, I want to keep to the five minutes for 
each Senator.
    Secretary Perry. Yes, sir.
    Senator Alexander. So, Senator Feinstein.

                             NUCLEAR WASTE

    Senator Feinstein. Mr. Secretary, I'm going to raise my 
favorite subject, which is the most difficult, and you touched 
on it, and that's the spent nuclear waste that's piling up all 
over this Nation, in 78 reactor sites, in 33 States. We have 
77,000 metric tons of waste. We have four sites in California, 
3,000 metric tons. Our two big power companies, Southern 
California Edison and Pacific Gas and Electric, each of whom 
has two 1,100 megawatt reactors, are closing them down.
    There is no place for the waste to go. Yucca holds 
everything hostage. In the House, if you don't do Yucca, you 
get nothing, and the American people get nothing by way of 
secure storage of waste.
    And the Chairman, we have gone over, we have talked to the 
four major figures in the authorizing and the appropriating 
committees. For about 5 years we put a measure in our budget 
that would permit a pilot nuclear waste site. We sat down with 
the heads of the energy committee, we drafted overall voluntary 
legislation that would constitute a nuclear waste policy for 
this country that after talking with every expert we could 
find, that we believed was workable and doable. There's tens of 
millions of dollars held up in payments because there's no 
place to put waste. And it goes on and on and on. And 
seemingly, no energy secretary has been able to break this 
logjam. And I'm getting more and more beside myself because I 
think it is a real hazard to our people.
    In California, we are on what's called the rim of fire. 
We're on the Pacific coast, where big quakes, look at where--
Fukushima, Indonesia, Argentina, Alaska, California. Big 
quakes. We have to secure this waste. It's all hot waste. And I 
don't know quite what to do because the issue is Yucca, and 
there are two schools of thought. I met with one of the 
Senators and we talked about Yucca the other night, and she was 
saying how it is dripping water right down through the whole 
thing. If that's true, it's not a good place. I haven't been 
there, I haven't seen it.
    So I would like to ask you this question. The Department of 
Energy has to take the lead here. We have to break the 
stalemate. We have to develop some pilot projects because Yucca 
would be filled tomorrow.
    Are you willing to take on that leadership? And what will 
you do? How do we solve this problem?
    Secretary Perry. Senator, thank you. I will disagree with 
you with one thing, that because of a Secretary of Energy, 
singularly, we're going to be able to either move forward or 
not. I will tell you, I will be a very willing participant as a 
partner in this, understanding how this process works, and have 
extraordinary respect for the United States Congress and the 
process of how we create statutes and go forward working with 
the Administration and being a part of the Administration.
    As a bit of a--just a touch of levity here, I'm learning 
that there's a real difference between being a secretary and 
being a governor, and in the sense of that we have a 
partnership here. And I think you know in my both public and my 
private statements, that I think it is a moral imperative for 
this country to move forward and find the solution to this 
waste issue, both the high level waste and the interim. And I 
will throw a lot of Jello at the wall, if that's what is 
required to stimulate conversations, to, you know, to try to 
truly come up with the solution to this.
    But I don't think this is one individual's--and changing 
one individual's going to--in its finality be the solution. But 
I think we can have an open conversation and talk--I mean, the 
idea that we've got a site that has----
    Senator Alexander. Mr. Secretary, we're about at five 
minutes, if you----
    Secretary Perry. Yes, sir.
    Senator Alexander. We can come back to that subject, and I 
have an idea we will.
    Senator Feinstein. I think so.
    Senator Alexander. Thank you, Senator Feinstein.
    Senator Kennedy.

                    FISCAL YEAR 2018 BUDGET REQUEST

    Senator Kennedy. Thank you, Mr. Chairman.
    Mr. Secretary, after you got over at energy and had a 
chance to get settled in, you looked at the budget, did you 
find any waste in the budget?
    Secretary Perry. Oh, I can find duplications in the budget. 
I can find places that--I haven't seen a budget that's ever 
been written, in my 30 years of being either an appropriator, 
an agency head, or a governor, that there wasn't a place 
somewhere that I could--or anybody else for that matter, could 
point to and say that we can do without.
    Senator Kennedy. Okay. You talked a little bit about MOX. 
Maybe we'll come back to that. Other than MOX, what other waste 
did you see in the budget?
    Secretary Perry. Well, again, I think that's in the eye of 
the beholder. So, you know, I go back and tell you that----
    Senator Kennedy. Well, you're the beholder.
    Secretary Perry. Okay. I'd tell you that there are areas, 
whether it is in public relations, whether it's in different 
agencies or different departments, I should say, where you have 
duplication of services and you can consolidate them and do it 
at a, you know, more efficient and effective way.
    Senator Kennedy. Let me put it another way. What I'm trying 
to get my arms around is you went from $31 billion to $28 
billion, as I understand it, in your budget. And I assumed that 
you decided the $3 billion wasn't a priority. Look, I applaud 
you for your fiscal responsibility. You did it as governor, and 
I appreciate that approach now.
    Where'd you find the savings, is what I'm trying to get to.
    Secretary Perry. Well, one of the things that I would like 
to bring to your attention, sir, I got here on the 2nd day of 
March, and that budget was already written.
    Senator Kennedy. Yes.
    Secretary Perry. My job is to sit here in front of you and 
to robustly defend it, which is what I'm doing.
    [Laughter.]
    Senator Kennedy. Okay. I appreciate your candor. So this is 
not your budget. I get it. I understand.

                              MOX FACILITY

    Tell me, if you would, being mindful of our time here, Mr. 
Secretary, tell me what your objections are to MOX.
    Secretary Perry. Well, there are multiple areas of MOX that 
I think it would do well for us to have a good understanding 
of.
    This is a project that was put into place some years ago. I 
think back in the Clinton Administration was when it was first 
moving forward. In the mid 2000s it got kicked off, and it is 
vastly beyond I think anyone's wildest dreams of a budget of 
what we would be faced with.
    Senator Kennedy. So you think it is too expensive?
    Secretary Perry. Yes, sir.
    Senator Kennedy. Okay. Do you think--putting the cost aside 
for a second, do you think the purpose of it is worthwhile?
    Secretary Perry. I can discuss it and debate it. I think if 
the question is, is there a better way to do this?
    Senator Kennedy. Yes, sir.
    Secretary Perry. Then I would say, yes, sir, there is a 
better way. There's a cheaper way, there's a faster way, and 
there's a lot of side issues and vagaries out there that I'm 
not going to get into today. But if you want to know, this is 
over budget by massive amount, the end in sight is 2048, and 
there is an option that is acceptable, that is substantially 
less expensive, and more expeditious.

                           METHANOL FACILITY

    Senator Kennedy. Okay. Thank you for that.
    Let me ask you about your thoughts about the methanol 
plant. There's a proposed petcoke-to-methanol facility in my 
State, Lake Charles, very close to Beaumont. What's your 
thinking about that? I noticed that in your budget, I realize 
you haven't really had a chance to get completely settled in, 
but your budget request eliminated this program.
    Secretary Perry. Yes.
    Senator Kennedy. And it was a loan guarantee, if I recall, 
and I wanted to know your thinking on that.
    Secretary Perry. Yes. Well, I talked to your other Senator, 
Senator Cassidy, about that as well, and we have discussed it. 
I'm not at this particular point in time going to tell you that 
it's completely off the table to continue the conversation. 
It's not. This budget does, in fact, do that. But I think it's 
something that we can continue to have a conversation on.
    Senator Kennedy. Is there anything in particular about it 
that concerned you in terms of it being taken out?
    Secretary Perry. No, sir. Not that I can tell you here in 
the committee without further detail.
    Senator Kennedy. Okay. All right. I'm going to yield my 
last two seconds.
    Senator Alexander. Thank you.
    Senator Kennedy. Thank you. Thank you, Mr. Secretary.
    Secretary Perry. Yes, sir.
    Senator Kennedy. Nice to meet you. I've watched you on TV, 
and Louisiana, next door to Texas, I've watched you be a fine--
--
    Secretary Perry. I had to compete against your governor 
over there, Bobby Jindal. He's a good competitor.
    Senator Alexander. Thank you, Senator Kennedy.
    Senator Udall.

                     LOS ALAMOS NATIONAL LABORATORY

    Senator Udall. Thank you, Chairman Alexander.
    In 2013, Los Alamos paused plutonium production following 
compliance and safety concerns. A recent report was published 
in the Washington Post detailing safety issues, which have been 
covered well by the defense nuclear facilities safety board.
    Both Los Alamos National Lab and General Klotz have 
responded to these issues, identifying the work they have done 
to correct the infractions, and I'd like to enter both the memo 
from Los Alamos and the statement from General Klotz in the 
record.
    Mr. Chairman, I'd like to enter--Chairman Alexander, I'd 
like to enter two statements in the record from General Klotz 
and from Los Alamos on the issue of responding to safety 
issues.
    Senator Alexander. It will be done, Senator Udall. Thank 
you.
    Senator Udall. Thank you.
    In your opinion, in the opinion of DOE, is Los Alamos 
making acceptable progress to fix all identified issues with 
its plutonium pit program?
    Secretary Perry. The short answer is, yes, sir. If I can 
expand just a moment. It's made significant progress with 
hiring new criticality safety analysts since that 2013 pause in 
operations. They're back, you know, operating at an appropriate 
level, and we have a conscientious and a safety-based decision 
to pause that back in--the PF4 back in 2013. And anyway, the 
reviews were done, the readiness assessments were very 
deliberately and appropriately accomplished, and it's been 
safely brought back online, and so I'm just satisfied that----
    Senator Udall. No, thank you for that, and that's 
consistent with both the Los Alamos memo that I put in and 
General Klotz's memo that I put into the record.

                        PLUTONIUM PIT PRODUCTION

    Is the Department of Energy still on schedule to meet the 
Department of Defense requirements for pit manufacturing?
    Secretary Perry. Yes, sir.
    Senator Udall. And the current contractor was penalized for 
safety problems with the contract, will be going out for--that 
contract will be going out for re-bid soon. Will DOE commit to 
make safety improvements and accountability key parts of the 
re-bid process at Los Alamos?
    Secretary Perry. Yes, sir. I think somewhere north of $80 
million were withheld from that contractor in their fees, and 
they didn't earn 4-year contract extension either. So from my 
perspective there were some pretty good teeth in this and a 
clear message sent. NNSA is conducting very thorough and 
transparent annual reviews now to hold those M&O partners 
accountable.
    So, and again, when safety of the operation's at our labs, 
I don't think there is anything more important, from my 
perspective.
    Senator Udall. Thank you, Secretary Perry for that answer.
    An analysis of alternatives is currently ongoing for the 
plutonium mission at Los Alamos, and I understand this analysis 
is expected to be complete sometime this summer. Can you 
provide a more specific time estimate for completion, and will 
you assure us that the analysis will be objective and free from 
political interference?
    Secretary Perry. Yes, sir. I think you need a little more 
than a single word answer, though. The analysis that's being 
done is going to look at what is in the best interests of this 
country, what's this country's needs from the standpoint of 
plutonium pit production, what is the timeline of which we 
would be required, if the DOD tasked us with that, and do we 
have the appropriate facilities and the volume, if you will, to 
be able to handle that.
    By this summer, which we're quickly approaching, we should 
have that AOA (analyses of alternatives) finalized, and you and 
the committee will be notified appropriately.

                              MOX FACILITY

    Senator Udall. And just--I know my time's almost up here.
    The final question had to do with MOX and where the waste 
goes. And as you know, there are very specific requirements in 
the law as far as the Waste Isolation Pilot Project. So I hope 
that you will work with us and work with the State of New 
Mexico to make sure that we have some agreement on that, 
because that's an issue that's very important to New Mexico.
    With that, I would yield back. Thank you, Mr. Chairman, and 
thank you, Mr. Secretary.
    Senator Alexander. Thank you, Senator Udall.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Secretary Perry, thanks for being here.
    Secretary Perry. Yes, sir.

              CARBON CAPTURE UTILIZATION AND SEQUESTRATION

    Senator Hoeven. Thanks for your service. We appreciate it, 
and you bring a tremendous amount of experience in the energy 
world to the job, as well as, obviously, leadership in 
government. I appreciate the fact you've committed to come out 
to North Dakota and see what we're doing with carbon capture 
and sequestration.
    We have the only full scale plant that I know of that 
actually takes lignite coal, turns it into synthetic natural 
gas, captures the CO<INF>2</INF>, and compresses it, puts it in 
a pipeline, ships it to the oil fields for secondary oil 
recovery. We're working to build on that. We want to show you 
that. It's a pretty massive, amazing operation. And then at the 
Energy Environmental Research Center, University of North 
Dakota, they're doing, I think, the foremost or among the 
foremost research in carbon capture and storage.
    We have two projects that we're working on that we want 
your help with. One is Project Tundra, where we're developing 
retrofit equipment to put on coal plants, back-end scrubbers, 
if you will, that will capture CO<INF>2</INF> for storage, 
maybe for secondary oil recovery or maybe just storage. So 
that's on existing plants to reduce CO<INF>2</INF>. And that's 
Project Tundra. The other is what we call an Allam Cycle, which 
is actually developing a plant, a front-end process, building a 
plant that would capture carbon or be very low carbon emission.
    Both of those have not only consortiums of companies behind 
them with funding, but also funding from the State of North 
Dakota through research funds we have. We want to partner with 
some of the funds that you have in your budget for pilot and 
demonstration projects. Now, you're doing one of these down in 
Texas--I think down in Houston, I'm not sure, but you would 
know----
    Secretary Perry. Petra Nova.
    Senator Hoeven. Petra Nova.
    Secretary Perry. It's actually in production now, sir.
    Senator Hoeven. Yes. And so that's exactly what we've got 
ready to go with corporate--with, you know, corporate partners 
that will put up capital. And these are all players that are 
doing this already to some degree. And then with the State of 
North Dakota. So to get you out there to see these things, and 
then see how you as the leader of the Department of Energy is 
really important for actually doing it instead of just talking 
about it.
    Secretary Perry. Yes, sir.
    Senator Hoeven. Right?
    So I'd just like you to respond to that in terms of this 
budget, you've got funds in there. Let's put them to work and 
actually do it instead of just listening to folks talk about it 
all the time. What do you think?
    Secretary Perry. Yes, sir. I think it's important for us to 
prioritize these types of expenditures, where we can see a real 
return on our investment, so to speak.
    Senator Feinstein, one of the things that I was able to do 
on my trip to China, to the Clean Energy Ministerial, was to 
get them to agree to highlight carbon capture utilization and 
sequestration in some of the projects that they're going to do. 
We talked to the Chinese about this and I think it is really 
important for us to go forward with these projects in the 
United States because then we will have the technology that the 
rest of the world can use and can buy. We can help in Europe, 
for instance, who, you know, are in a bit of a quandary as they 
move away from some historic uses of energy, whether it is coal 
or nuclear, and they're having a really difficult time being 
able to have the energy for their citizens.
    So, you know, whether it's China or Europe, these 
technologies have the potential to pay great dividends. And 
again, this goes right back to what you talked about, the 
Department of Energy, and the technology and the innovation 
that we come up with in our labs that are then commercialized, 
and this is a great example of it.
    Senator Hoeven. But this is really a key piece, and that's 
why it's important that this funding's in our budget, and I'm 
also addressing this to our Chairman and to our Vice Chairman, 
this is how we go from the lab--we have to go from technical 
viability to commercial viability. So we need to do this. We 
need to do these pilot projects and these demonstration 
projects to get the industry to commercial viability on 
CO<INF>2</INF> capture and storage because then they'll not 
only adopt it in this country, but in other countries.
    Secretary Perry. Yes, sir.
    Senator Hoeven. So we can't cut that--I would ask, we can't 
cut that piece out. We actually have to do it. We have to take 
it--we can do it--it's technically feasible. We've got to make 
it commercially viable. You're a key piece or part of that 
process to get to commercial viability. Aren't you?
    Secretary Perry. I'm going to follow your lead very 
closely, sir.
    Senator Hoeven. Good deal. Thanks again for your service. 
Appreciate it.
    Secretary Perry. Yes, sir.
    Senator Alexander. Senator Hoeven, sounds like a pretty 
good answer you got, to me.
    Senator Hoeven. Outstanding answer.
    Senator Feinstein. That was the best of the afternoon.
    Senator Alexander. Yes.
    Senator Merkley.

                              WIND ENERGY

    Senator Merkley. Thank you, Mr. Chairman, and thank you, 
Mr. Secretary.
    I want to start by--wind energy. Wind energy has become 
such a big part of the economy in many States, providing 30 
percent of Iowa and South Dakota's total electricity 
generation, 20 percent in three other States, Texas, of course, 
is the biggest wind generator in the country. And so I was a 
little surprised to see that with this powerful force for 
economic development and clean energy that the wind program was 
cut by 60 percent. You have a short thought as to why we should 
cut it 60 percent? Shouldn't we keep advancing this--by the 
way, in rural America, this is a powerful driver in my rural 
counties of economic development.
    Secretary Perry. I guess if there was anybody in the room 
that has any more history, and experience with wind energy, 
that would be me. Over the course of my time as the governor of 
Texas, we became the number one wind energy producing State in 
the Nation. As a matter of fact, we produced more wind than----
    Senator Merkley. Congratulations, but I only have a little 
bit of time.
    Secretary Perry. Yes, sir. I'm sorry.
    Senator Merkley. I appreciate the background.
    Secretary Perry. Give me a crack to talk about Texas, and 
I'm going to do it, sir.
    Senator Merkley. It's a great opportunity.
    Would you support----
    Secretary Perry. More than five other countries, but----
    Senator Merkley [continuing]. Doing more for wind than is 
in the initial budget?
    Secretary Perry. Well, here's what I will say about that, 
and this is my experience with it. I think the States have a 
substantially more important role to play than the Federal 
Government when it comes to an industry that is reached a 
maturity level that it is either going to stand or fall on its 
own. And from the standpoint of this budget and what it's 
looking at there are more and new technologies from the wind 
side, I'm certainly open to our national labs looking at those 
and funding them.
    Senator Merkley. Mr. Secretary, thank you. I will just make 
a few comments on it, which is that if there's anything that's 
mature, it's fossil fuels. Wind is evolving very, very rapidly, 
and so slashing both the funds that are designed to improve its 
integration into the grid and the R&D on it seems to me like a 
mistake as well as slashing the energy storage budget by 75 
percent, which is massively important to the stability of our 
bridge.

                    BONNEVILLE POWER ADMINISTRATION

    And speaking of mistakes, selling Bonneville Power, and I'm 
just going to make the comment, because if I let you talk, I'll 
lose my last two minutes.
    So selling Bonneville Power would be a huge mistake. Look 
at what happened with the parking meters in Chicago, where it 
is now $6 per hour after they sold off their parking meters. 
The company recouped its entire investment of about $1.15 
billion in the first 15 years, and they've got 60 years to go, 
and so the citizens are paying far more. And if you put the 
electric power of the northwest up to sale for--hold the entire 
northwest economy hostage, it would be a phenomenal mistake, 
and I can guarantee to you, every single Senator and House 
member in the entire northwest will lay themselves down on the 
track to make sure that that doesn't happen, trying to destroy 
the economy of a good section of the Nation.

                              HANFORD SITE

    I'm also concerned about the cutting of the funds to 
Hanford. I was pleased in your nomination hearing to hear that 
you're committed to, ``prioritizing one of what is the most 
dangerous, most polluted sites in this country,'' but it has 
$190 million slash to the Hanford budget for this most 
dangerous, most polluted site in the country. Can we keep 
working to clean this up?
    By the way, a tunnel just recently collapsed that was a 
tunnel into the PUREX facility. That thing hasn't been used 
since 1980, and we haven't gotten a thing cleaned up yet. Can't 
we get the site cleaned and not slash the funding for cleanup 
at Hanford?
    Secretary Perry. I think you bring up a very important 
issue that I hope we can have a conversation with going 
forward, and that is, the cost of Hanford and the projected 
cost on the out years. I think there is some real questions 
that need to be asked as we go forward about the return on the 
investment that we're getting, and making sure that the dollars 
that we do spend, Senator, are, in fact, delivering the results 
that the people of the country and certainly of the northwest 
deserve.
    Senator Merkley. I absolutely agree with that. And the 
point is, that we built all these nuclear plants, made a big 
mess, and the Federal Government should clean it up, and then 
go decade after decade with doing virtually nothing out there. 
And you're right. I don't think the money's getting--that 
there's not enough of action on the ground for the amount of 
money we're spending, but apparently it's an extraordinary 
difficult issue and undercutting the existing programs I'm 
concerned about.
    And my time's up, and thank you very much.
    Secretary Perry. Yes, sir.
    Senator Alexander. Thank you, Senator Merkley.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    And welcome, Secretary Perry.

                             OFFSHORE WIND

    I want to talk to you about a different kind of wind power 
than Senator Merkley brought up, and that is offshore wind 
capacity.
    I want the United States to be the global leader in this 
cutting edge technology. I don't want it to be China or even 
Europe or Japan or South Korea. I want it to be our country. By 
the end of 2016, nearly 14,000 megawatts of offshore wind 
capacity had been installed in 14 markets across the world, 
including the areas and countries that I just mentioned. In 
comparison, only 30 megawatts of offshore wind capacity had 
been installed in the United States. We are way behind in the 
global race to harness clean renewable offshore wind energy, 
yet within 50 miles of our shores, there is enough offshore 
wind capacity to power our country four times over.
    I'm a strong supporter of the department's Offshore Wind 
Advanced Technology Demonstration program, Maine has been a 
real leader in this area. Do you believe that the United States 
should prioritize advancing this kind of wind energy, the 
offshore wind space?
    Secretary Perry. Senator, as you know better than anyone in 
the room, the University of Maine has been the Department of 
Energy's partner in this, and each of those two offshore wind 
projects have received I think about $11 million to date for 
the R&D on this very cutting edge design, as you bring to our 
attention. And they're eligible for up to $40 million for 
construction, if they complete the very rigorous criteria along 
the way, which I suspect they are going to do and I will help 
you as well, keep them on line and on track.
    Moving forward, our budget includes some $32 million to 
focus on early stage R&D, to address the improvement side of 
the performance and reliability of the wind technology. So I 
think it is important, I was going to tell Senator Merkley 
that, you know, I think it's important that although there's 
reductions in the budget, and I understand that, I hope you all 
will trust that I have some experience, pretty good experience 
in dealing with having to manage big projects and big entities 
when there is a reduction in the budget, and that I can win 
your support and your trust going forward, but on this, you 
have, I think, a pretty clear indication from my remarks here 
that we're going to be continuing to be supportive in those 
areas.
    Senator Collins. Thank you.

      COLLABORATION BETWEEN NATIONAL LABORATORIES AND UNIVERSITIES

    The second issue that I want to bring up is an exciting new 
research collaboration between the Chairman's national lab, the 
Oak Ridge National Laboratory, and the University of Maine that 
was announced earlier this year. And this collaboration, which 
is a formal agreement, will bring together the lab's expertise 
in additive manufacturing with the University's focus on forest 
bio based composites and other composite structures.
    You highlighted in your testimony the importance of our 
national labs, and this project really has such potential for 
producing, to revolutionize our composite of low cost energy 
systems, automotive manufacturing, airplanes and pressure 
vehicles for compressed gas storage while lowering the energy 
use and creating jobs.
    Would you elaborate on how the department will encourage 
and support research collaborations between the national labs 
and our universities to bring American leadership to the 
forefront in advanced composite materials manufacturing?
    Secretary Perry. Senator, I had the opportunity to go out 
to Oak Ridge with the Chairman, and we toured through the 
advanced manufacturing facility out there. There 3-D printing, 
and it's pretty fascinating, and as a matter of fact, we drove 
a Jeep that they had 3-D printed. Those partnerships with 
universities and our national labs, and I might add, the 
private sector, those public-private partnerships are going to 
play a very important role. I think as we are looking for 
innovative ways to fund or maybe to be able to find some 
funding that we think is important as we go along. Again, I'm 
not afraid to get outside of the box and talk about different 
ways to fund things that nobody's ever done before, that you 
all obviously would checkoff on and approve, but let's have 
these conversations because I agree with you that the 
technology and innovation that is going to be coming out of 
those labs and those partnerships are world changing.
    Senator Collins. It is very exiting. Thank you.
    Senator Alexander. Thank you, Senator Collins.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.

                              PARIS ACCORD

    I want to thank you for being here, Secretary Perry. I do 
appreciate your style. I do. And I want to thank you for being 
in the position of Secretary of Energy. I will tell you that 
American leadership is something I've been very, very proud of 
my whole life, and I don't think it came by accident. I think 
it came by way of the greatest generation in this country to 
have vision and foresight. And I will just say, this is not a 
question. I think pulling out of the Paris Accords was an 
incredibly stick-your-head-in-the-sand move. There were no 
mandates there. And I think it allowed us to be associated with 
Syria and Nicaragua, while China could come in and take away 
that American leadership and replace it with their solar panels 
and their technology. And I just think it's the wrong message.
    But that aside, I do want to associate myself with the 
Chairman's remarks on budgets and statements. You talked and 
you painted a really good picture. Unfortunately, the budget 
doesn't back up what you were saying, and I think that's 
unfortunate, because I think you have a very, very similar 
vision as I do. R&D is critically important in this budget.

              FOSSIL FUEL ENERGY RESEARCH AND DEVELOPMENT

    And the R&D is cut fossil fuel energy research and 
development by nearly $400 million. We have a little town 
called Colstrip, Montana. It's called Colstrip for a reason.
    Secretary Perry. Yes, sir.
    Senator Tester. And R&D is going to be critical for that 
town to stay in existence. It is just going to be critical. And 
I don't think coal's going away in the near future. I think 
that it's going to be on the decline for a while. But it's 
going to still be around for a while. And if we don't have 
research and development to develop coal plants, coal-fired 
plants that, you know, take into account carbon capture and how 
we deal with it, I think it's making a mistake.
    Would you tell me what the thought process was into cutting 
the R&D when you said multiple times during your opening 
statement how important R&D was. In fact, I think it was the 
first thing you said of importance in your job as Secretary of 
Energy.
    Secretary Perry. Yes, sir. I think we have some work to do 
on this budget, and I know that. And I'm going to spend the 
time and the hours, you know, working with you all to find, you 
know, find a budget that we can----
    Senator Tester. Okay. Okay. Good.
    Secretary Perry [continuing]. Both agree on and get the job 
done.

                    POWER MARKETING ADMINISTRATIONS

    Senator Tester. Thank you. My crack staff tells me that 
Senator Merkley talked to you about selling off power marketing 
administrations----
    Secretary Perry. Yes, sir.
    Senator Tester [continuing]. Such as BPA. What they didn't 
tell me is what your answer was. I think that we have heard 
that there is the potential of selling off the power marketing 
administrations, BPA, and I'll tell you how important it is for 
a whole bunch of things.
    Where are you at on that?
    Secretary Perry. I would----
    Senator Tester. Are you going to be advocating for selling 
those, or are you going to be saying stay the course?
    Secretary Perry [continuing]. Tell you, sir, that that has 
been offered up in a number of budgets before.
    Senator Tester. And where are you at on that issue?
    Secretary Perry. I would tell you that I'll be working with 
you all on finding the solutions to the challenges we face.
    Senator Tester. So I will tell you this, okay. You're 
pretty good, okay. You've been a governor for 14 years, and 
you're pretty good. But here's the bottom line. We've got to 
have leadership. You know what that's like. I mean, you 
wouldn't have been governor for Texas for 14 years if it wasn't 
about leadership, and you know very, very well that in your 
position, we can do what we want, but you can do a lot of 
things we can't stop. And I just need a commitment you're not 
going to do that because it would be horrific for my folks. 
I'll just tell you.
    Secretary Perry. I think the message has been sent, sir.
    Senator Tester. Okay. All right. Sounds good.

                            RENEWABLE ENERGY

    Energy is critically important for this country, affordable 
energy. So you're going to maintain a position of economic 
viability, affordable energy, as part of that equation.
    We have made incredible advancements in solar and wind, and 
there are pretty significant cuts to the DOE's wind account, 
and I'm--if we truly are going to be at all of the above, which 
I think we need to be, because I don't think you want to throw 
away any opportunities, we should be doing whatever we can do 
to increase those opportunities, especially those opportunities 
that don't contribute to climate change. They have their other 
challenges, by the way, wind does, and you know that, too.
    But my question is, why we would be cutting our renewable 
portfolio component that is, I think, going to become more 
important in the future, not less.

                         SMALL MODULAR REACTORS

    Secretary Perry. Senator Tester, I think you bring up a 
really important issue that we need to talk about as a country, 
and certainly starts right here in the appropriation's room. 
And that is a technology that is zero emission, that we have 
the potential to lead the world in, and that is small modular 
reactors. I don't think there is an issue that I think has any 
more potential for this country, and for the world, from an 
emissions standpoint, and I think that these----
    Senator Tester. So you're talking nuclear?
    Secretary Perry. Very much so.
    Senator Tester. Okay. So then that--and I'm going past 
time, and you can cut me off, Mr. Chairman, because I know you 
might.
    But then what do you do with spent fuel? I mean, how do 
you--that's one of the things you brought up in your opening 
statement?
    Secretary Perry. Oh, yes, sir.
    Senator Tester. How do we deal--I agree with you, but how 
do we deal--I mean, you got CO<INF>2</INF> is a problem on one, 
you got spent fuel is a problem on another, its half life is 
long past anybody in this room and a whole bunch of their 
ancestors are going to be around----
    Secretary Perry. I think the technologies are available to 
deal with the spent fuel.
    Senator Tester. There are technologies to be able to 
nullify the impacts of the spent fuel. Okay.
    Senator Alexander. Senator, I think we're----
    Secretary Perry. I think there are ways to deal with the 
spent fuel that are appropriate from the standpoint of how you 
deal with nuclear energy.
    Senator Tester. And I would love to hear what those are.
    Secretary Perry. Okay.
    Senator Tester. I would. And so I look forward to carrying 
on this conversation.
    Thank you, Mr. Chairman.
    Senator Alexander. We will have plenty of time for a second 
round of questions.
    Senator Shaheen's been waiting patiently.
    Senator Shaheen.

                 ENERGY EFFICIENCY AND RENEWABLE ENERGY

    Senator Shaheen. Mr. Chairman, thank you.
    Mr. Secretary, I appreciate you being here. But I have to 
say, I share the Chairman's negative view of this budget 
proposal, and I was especially disappointed that the 
President's budget calls for a 70 percent, seven-zero, cut to 
DOE's Office of Energy Efficiency and Renewable Energy. That, 
when energy efficiency is America's largest energy resource, it 
contributes more to our Nation's energy needs over the last 40 
years than any other fuel source, including nuclear and fossil 
fuels, and it is also the largest sector within the U.S. clean 
energy economy. It employs nearly 2.2 million Americans, the 
majority of whom work for small businesses.

                   WEATHERIZATION ASSISTANCE PROGRAM

    Now, one of the programs that is zeroed out as part of that 
office is the Weatherization Assistance Program, which has done 
a tremendous benefit, provided a tremendous benefit to people 
in New Hampshire and across the country. And by comparison, the 
cost of this program is relatively low when compared to much of 
what the DOE does, and it helps people like Neal and his wife 
from Manchester, New Hampshire, our city's--our State's largest 
city. They're both over 50, they're disabled, and they were 
granted assistance to insulate their home through the 
Weatherization Assistance Program, and Neal writes about that. 
He says, ``We feel as if we've won the lottery. No words can 
express how our home has been made more comfortable and so much 
more efficient. We hate to even think of where we would be 
today had we not been recipients of these services.''
    People who use the Weatherization Assistance Programs are 
working Americans who are trying to stay in their homes, trying 
to take care of their families. These dollars help them do 
that. So can you please explain to this committee why we should 
cut support for critical energy efficiency programs that are 
creating jobs, stimulating the economy, and helping to reduce 
energy bills for American families and businesses?
    Secretary Perry. Senator, I think from a former governor's 
standpoint, I would share with you that the Administration's 
view of this is that that program, programs like that, 
particularly in time when we do have to make decisions about 
how to rein our spending in, could best be made by the States. 
I know that the Administration's focus here is on activities 
that are properly performed by, whether it's the Federal 
Government's responsibility or the State's responsibility. And 
I would argue that this is a program where the States, giving 
them, and to the extent practical and as desired, will re-
prioritize their spending to deal with those. If those programs 
are as important as what, you reference, and I certainly think 
they are, then the States will pick up their fair share of 
those.

           SPENDING FUNDS CONSISTENT WITH APPROPRIATIONS LAWS

    Senator Shaheen. Well, Mr. Secretary, I've heard that 
response from a number of secretaries now within the 
President's cabinet. And you know, I think you have a saying in 
Texas that we also agree with, that dog just won't hunt. The 
fact is----
    Secretary Perry. I know what you mean by that.
    Senator Shaheen. You know, we rely on resources that the 
Federal Government has promised us, we send more tax dollars to 
Washington DC than we get back. And we think that these 
programs that make a difference for people in New Hampshire are 
very important.
    I have another question for you, Mr. Secretary, because I'm 
deeply concerned by reports that DOE has delayed awarding 
funds, and in some cases is refusing to release funds 
altogether for various activities for which Congress has 
already provided appropriations. And on May 4, your chief of 
staff, Brian McCormack, sent a memo to department heads within 
the agency, stating that all pending and future funding 
opportunities would undergo additional review by DOE's Office 
of Management to ensure the grants are consistent with the 
President's priorities.
    Now, Mr. Secretary, I know, because you have been a 
governor that you know that the authority of funding the 
Federal Government is held by Congress and Congress alone. So 
can you commit that DOE will spend funds according to the 
appropriated line items and report language included in the 
fiscal year 2017 omnibus budget passed by Congress and signed 
into law by the President?
    Secretary Perry. Senator, I have some new information just 
today on that issue that I want to share with you. And in 
totality, we have now announced $595 million in awards to 489 
different projects across our energy and science R&D programs, 
and we've also announced some $35 million that are going to be 
available through five new funding opportunities, FOAs. I think 
it is common practice when a new administration comes in to 
review ongoing programs and ensure consistency with the 
Administration's policies. And in this matter, we did initiate 
a full review, and that has been done, and we're issuing 
awards, and will issue funding opportunities as they move 
through the process. And you're absolutely correct, as a former 
appropriator and as a governor, I understand the process. I 
know who has the strings to the money.
    Senator Shaheen. So I know my time is up, Mr. Chairman, but 
can I just--do I then understand that you are saying that for 
dollars that have been appropriated under the fiscal year 2017 
omnibus budget, that the department will get those dollars out 
the door by the appropriate timelines that are in that budget?
    Secretary Perry. That is my intent.
    Senator Shaheen. Thank you.
    Senator Alexander. Thank you, Senator Shaheen.
    We welcome Senator Murray.
    Senator Murray. Thank you, Mr. Chairman, and thank you for 
your patience. There's a lot of hearings going on this 
afternoon.

                              HANFORD SITE

    Secretary Perry, thank you for being here. Let me start 
with the Hanford site. It's in my State, central Washington, as 
you well know.
    The Federal Government has a moral and a legal obligation 
to clean up that nuclear waste site, yet President Trump's 
proposed budget is very shortsighted, and it is inadequate when 
it comes to Hanford.
    I want to ask you, does DOE support completing the low 
activity waste facility and hot commissioning it by December 
2023?
    Secretary Perry. Yes.
    Senator Murray. Okay. Well, you tell me how you will meet 
that. It's a legally binding consent decree requirement with 
this budget request that essentially holds the Office of River 
Protection flat, despite a very clear demonstrated need for 
increasing resources to meet those obligations.
    Secretary Perry. Senator, you were not here a little bit 
earlier, and I talked about Hanford in a global sense. I talked 
about how I hope we can have a conversation. I know I'm coming 
out hopefully this summer, and we can walk across the Hanford 
site together.
    Senator Murray. You can't walk across it. It is really big.
    Secretary Perry. Yes, ma'am. I'll attempt to travel it 
however you choose.
    But the point is, I'd like to come out there with you, and 
we can talk about the cost, and are we getting a good return on 
our dollars. And I think you share that.
    Senator Murray. Well, of course, I do.
    Secretary Perry. Yes, ma'am.
    Senator Murray. And I did hear about your comments earlier. 
And let me just say this: Thousands of projects on cleanup have 
been already done.
    Secretary Perry. Yes.
    Senator Murray. But there is a lot of work left to do.
    Secretary Perry. A lot left to do.
    Senator Murray. And this is a legal obligation, it's a 
moral obligation. And we can't just say, well, we're not going 
to do this. It is going to be done, it has to be done. Of 
course, we're all interested in saving costs. But you also have 
to protect all the workers there. This is a nuclear waste site.
    Secretary Perry. Yes.
    Senator Murray. So safety has to come first. And you can't 
just throw out decrees and consent decrees and legal 
obligations that are there. And there is a lot more work to do. 
So I just want you to know, this is not a simple project, you 
just don't land there----
    Secretary Perry. It is not a simple project. And I think of 
all the challenges that I face as a secretary that are going to 
be here after I'm gone, it is Hanford. How we deal with it, how 
we address it, looking at new ways to address it, getting 
outside of the box, and maybe how historically the government 
has looked at it I think is worth a conversation. That's not to 
say that I have any new piece of information, but I will work 
with you every day, if that's what's required, so that the 
people of Washington State and the citizens of this country 
know that we are committed. I totally agree with your 
observation that this is a moral and legal imperative that we 
have as a country to clean that site up, and I'm committed to 
it. I just want to make sure and use my experiences of a 
lifetime of managing some pretty big entities as the governor 
of Texas, that we do it in a way that we get the best result 
for our expenditures.
    Senator Murray. I appreciate that, but this is a nuclear 
waste site. It is extremely dangerous.
    Secretary Perry. I understand that.
    Senator Murray. And it has to be cleaned up. And if it 
doesn't clean up, it is going to leak into the Columbia River 
and will be a problem much bigger than it is now. And I've 
heard a lot of secretaries come before us that are going to go 
back and re-look at it and do something different. I've been 
here for 25 years, and I'll just tell you this. My dad was 
there when it was first built. And when he went to war in World 
War II and came back, and there was a site next to him, he 
didn't even know what it was. Well, we know what it was. Now we 
know what happened. We've had years of work to get it done. And 
that is a community that helped our country win a world war. 
And they do not deserve to have a nuclear waste site behind 
them, nor do they deserve to have people come in every 4 years 
and say I'm going to do something different. There's a lot of 
complex agreements that are in place to get it done, and the 
Federal Government's responsibility is to provide the dollars 
for that.
    So we need the Secretary to understand that. I appreciate 
you're trying to understand it. But I also want you to know 
that there's no cheap way to do this. There's absolutely no 
cheap way to do this, and it has to get done. And I really 
appreciate this committee, Senator Alexander, Senator 
Feinstein, who do understand, that have worked with us for a 
long time. None of us like to write checks for a lot of money, 
but the alternative is just not viable.
    So I appreciate your being here, and I appreciate you, Mr. 
Chairman, for accommodating me.
    Senator Alexander. Thank you, Senator Murray, and thank you 
for being here.
    We'll go to a second round of questions. And I'll begin.

                           SPENT NUCLEAR FUEL

    Mr. Secretary, let me go to the subject that Senator 
Feinstein says she's beside herself about. And my passion for 
it is right up there with hers, which is used nuclear fuel. And 
let me ask you some questions that don't necessarily require a 
long answer.
    Do you support building a permanent repository at Yucca 
Mountain?
    Secretary Perry. Yes, sir.
    Senator Alexander. Do you also support storing used nuclear 
fuel in a private consolidated interim storage site until Yucca 
Mountain is ready to accept the used fuel?
    Secretary Perry. I think that is an option that is viable.
    Senator Alexander. Do you believe we would be able to place 
used nuclear fuel in a private consolidated interim storage 
site more quickly than it could be disposed of in Yucca 
Mountain?
    Secretary Perry. I think your theory is correct. I think 
there's some questions that get asked about that, but your--my 
instinct is that you are correct in the speed of which you 
could--you could store.
    Senator Alexander. That the private consolidated interim 
site would be able to more quickly take, for example, used 
nuclear fuel from California than Yucca Mountain--the private 
site could be opened more quickly than Yucca Mountain could be 
finished?
    Secretary Perry. As a general rule, I think you're correct.
    Senator Alexander. Do you believe we should work on all 
options for used nuclear fuel at the same time, and if progress 
on one stalls, should we continue to work on the other options?
    Secretary Perry. Yes.
    Senator Alexander. Secretary Moniz testified before this 
committee last year that he had authority under existing law to 
take title to used fuel and contract with a private facility to 
store it. Do you agree with that?
    Secretary Perry. As a general matter, I agree that the DOE 
has the authority to take title to spent nuclear fuel, but I 
think there's a more specific question as to whether DOE has 
the authority to store such nuclear fuel at a private facility 
away from a nuclear reactor, and that requires statutory 
interpretation, clarification, if you will, and I think the 
more explicit Congress can be about our authority, the DOE's 
authority to store nuclear fuel at a private site, I think the 
clearer that authority will be.
    Senator Alexander. Thank you for that.
    If we specifically appropriate general appropriation funds 
this year for you to continue the work needed to be prepared to 
take title to use nuclear fuel and store it at a private site, 
will you be able to use those funds to make progress on private 
consolidated interim storage?
    Secretary Perry. Yes, sir.
    Senator Alexander. Mr. Secretary, there's two or three 
other questions I'll just send by letter. We're trying to get 
as accurate information as we can about how long will it take 
to open Yucca Mountain so that we can put used fuel there, or 
how long might it take to open a private consolidated interim 
facility so we can put used fuel there, or how long would it 
take to open an interim storage site such as the one that 
Senator Feinstein and I have put in the appropriations bills so 
we can compare that? I know there's some variables there, and I 
don't need----
    Senator Feinstein. Expanding WIPP (Waste Isolation Pilot 
Plant).
    Senator Alexander. Or expanding WIPP, would be a fourth 
site. So getting good advice from the Department of Energy 
about how long it will take, because we're really getting down 
to practical decisionmaking here. I mean, if it is really true 
that there are a couple of sites that are private, that have 
applications before the Nuclear Regulatory Commission, and the 
Nuclear Regulatory Commission did tell us in the hearing here 
that absent extraordinary circumstances, those facilities might 
be licensed within 3 years, and then if the construction is 
finished pretty quickly, we might be talking about getting used 
nuclear fuel out of California in 5 or 6 years, as compared 
with putting in Yucca Mountain in 10 or 15 years or longer.
    Now, I don't know that those years are exactingly right, 
but if they're even close to right, we ought to know that so 
that we can think in a practical way, how are we going to get 
this stuff from where it is to where it needs to go, at least 
on an interim basis. So if we can write you--and I think 
Senator Feinstein and I will write that letter jointly, I will 
ask her if she would like to, so we can begin a narrow--see if 
we can get some agreement on the time there.
    Secretary Perry. You very clearly touched on a lot of 
different options there that I think all should be on the table 
to discuss. Again, no decisions have been made yet, and we're 
obviously going to follow your lead at the DOE, but we will be 
as helpful as we can be, and we will be as inventive as we can 
be, and we will be as flexible as you need us to be to 
accomplish what is a very important duty that the DOE has for 
the country.
    Senator Alexander. I think we're fortunate to have you in 
this job at this point because this is a job that we two 
politicians haven't been able to solve yet and we could use the 
advice and leadership from someone with 14 years of experience 
as a governor of Texas. So we look forward to working with you 
on that.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. And I 
think your questions were precise and targeted and really 
effective.
    And, Mr. Secretary, I have tried for so long to solve this 
problem, but it is a real conundrum, and it really does need 
you to help us solve it. There's a difference of opinion with 
the House. That has to be reconciled. We have to look at Yucca. 
I mean, I have taken the position that Yucca does have faults. 
The NRC (Nuclear Regulatory Commission) sat here and said 
that's not right.
    I listened to others who know, say water's coming down 
through the place, and obviously, salt is better geologically 
than water. So that we don't really know who to believe, and 
it's very difficult. There's six million people living right 
around Southern California Edison, which is a huge company, as 
you know, and there's 3,300 hot plutonium rods sitting in spent 
fuel pools right over a beach. I mean, it's a problem. So we 
need to get them out of there, get them in transportation casks 
and be able to take them. PG&E is beginning to do this and 
putting them in transportation casks so they're ready to go 
somewhere in their decommissioning.

                     WORKFORCE RESTRUCTURING PLANS

    But let me ask you something about detailed work force 
restructuring plans.
    I went through the concerns, the huge concern about cutting 
6,700 jobs from really good labs, and what that will do. It is 
my understanding that the managers of those labs are now 
preparing for potential layoffs and developing detailed work 
force restructuring plans.
    My staff has been informed that one labs sent its work 
force plan to DOE. We're told that your office not only sent it 
back, but told other labs to no longer work on such plans. 
Question: Is that true?
    Secretary Perry. Not that I'm aware of.
    Senator Feinstein. Well, could you find out?
    Secretary Perry. Yes, ma'am, I will. Absolutely.
    Senator Feinstein. And let us know. Because it's clear the 
labs don't know.
    Secretary Perry. Yes.
    Senator Feinstein. So that would really be appreciated.
    Secretary Perry. What I've shared with the lab directors 
and those that have been both directly and indirectly, is that 
we're going to do everything that we can to make sure our labs 
are maintaining and doing the work that they've been tasked to 
do.
    You know, now, did I stand up and say, you know, do not 
worry, nobody's going to lose their job? I did not. Because I'm 
a realist and I've managed some pretty big entities before when 
budget restrictions have been in place. But I want you to know 
that we're going to do everything we can working with you and 
your members to make sure that--particularly those 17 national 
labs that we have, and the incredibly important work that we 
do. We've talked about a lot of things this afternoon. We 
haven't even discussed cyber and cyber security and the work 
that's going on at Idaho National Labs, dealing with our grid 
and making sure that our grid is secure. Literally, the 
security of this country is intricately intertwined in our 
national labs. And we are going to perform in a way that I 
think you will be respectful of and supportive of, Senator, 
when this process is over with.
    Senator Feinstein. Well, I really appreciate that. We've 
gone through this once before in another Administration. I 
forget whether it was Democratic or Republican, but we went 
through the same thing. And the havoc and the fact that we lost 
good people that went to other places and the insecurity that 
it set forth really was problematic. So I hope that you'll take 
a special involvement. We want to work, I think I speak for the 
Chairman, we want to work with you. We don't want to see 
massive disruption in good projects that are going on in these 
labs. If there's duplication, if there--you know, if there's a 
need in one place and not in another, if there can be 
transfers, and really, if there's waste, we don't want that 
either.
    So a lot of this depends on you, and I guess what I want to 
say is as the Ranking Member, I'd like to work with you, and I 
know the Chairman has been fantastic on virtually every issue. 
I think we can solve this problem.
    Secretary Perry. I do, too.
    Senator Feinstein. So let's do it. Thank you.
    Secretary Perry. Senator, I do, too. And let me just share 
with you. There's $4 billion of unspent DOE funds. If it could 
be used, there are ways to skin this cat, so to speak.
    Senator Feinstein. Thank you.
    Secretary Perry. And we will spend the time and the effort 
and be as inventive as we need to be to make this work.
    Senator Alexander. Thank you, Senator Feinstein.
    Senator Coons.
    Senator Coons. Thank you, Chairman Alexander, Ranking 
Member Feinstein.
    Thank you Secretary Perry. I reviewed your testimony in 
written form and appreciate the chance to question you today.
    Secretary Perry. Yes, sir.
    Senator Coons. You've had a long hearing----
    Senator Feinstein. 4 billion.
    Senator Coons [continuing]. And I appreciate the chance to 
raise my concerns.

                    FISCAL YEAR 2018 BUDGET REQUEST

    Over the last decade, the United States has become 
dramatically more energy secure and grown the economy, expanded 
jobs, and reduced greenhouse gases, all at the same time, 
broadly speaking. We've shown that we can be more 
environmentally responsible and support new jobs, and that's in 
no small part because of the Department of Energy's 
groundbreaking work that has supported a wide range of new 
energy technologies. That's why I think we need to stay 
committed to a previous goal of doubling investments in energy 
research. This would dramatically accelerate American 
innovation, confront challenges like climate change, increase 
jobs, ensure economic competitiveness, national security, and 
our environmental vitality.
    This budget, at least as presented, is the antithesis of 
that commitment. The forward leaning research model that the 
United States has championed for decades would be reversed, and 
there could be, as you've discussed at length with other 
members, significant cuts and jobs losses at our national labs, 
research university startups, and more.
    So let's be honest. We need to address our infrastructure 
grid reliability, climate change, and other challenges, and the 
Department of Energy has a critical role to play. Every energy 
resource in technology today has been nurtured, supported, and 
advanced in some small part or some significant part by Federal 
research as Chairman Alexander laid out at the beginning of the 
hearing, from hydraulic fracturing to solar power. We need to 
continue to invest in these partnership between DOE and the 
private sector.
    Mr. Secretary, this budget approach, if fully adopted, 
sends a clear message to China and the rest of the world that 
they will become the world's economic engine for clean energy, 
and the U.S. will become the caboose. It's my hope that we can 
work together in a bipartisan way to blunt some of the impact 
of this proposed budget.

                         ADVANCED MANUFACTURING

    Let me talk about advanced manufacturing. I was in 
manufacturing in the private sector for 8 years. I have some 
real concerns about the cuts to the Advanced Manufacturing 
Office in this budget, and I'm not the only one raising this 
concern. All seven former assistant secretaries for EERE, from 
George H.W. Bush to President Obama, sent a letter raising 
concerns about the 70 percent cut to this office. It seems to 
me this request is inconsistent with President Trump's agenda 
of supporting manufacturing. It's surprising there's $146 
million cut to the Advanced Manufacturing Office, including the 
$70 million to fund the Manufacturing USA Institutes. The 
strategy that produced the Manufacturing USA Institutes was led 
by the CEO of Dow and was led by a private sector initiated 
outside effort.
    I am concerned about this message to industry and to 
manufacturing. How do you justify this kind of a cut, this 
depth and breadth of a cut, in a manufacturing focused 
investment sector where it was broadly supported by industry 
partners from its outset and is critical to our long-term 
competitiveness? Help me understand your reasoning?
    Secretary Perry. Senator, I think the challenge that we 
always have when we have restrictions in our budgets is how 
we're going to manage the resources that we have. And again, 
I'm not asking you to take a complete pig in a poke here. I've 
got a history and a record of being able to manage some pretty 
big entities during some period of time that were challenges. I 
mean, billions of dollars of shortfall in my home State back in 
the early 2000s. And I'm not going to sit here and tell you 
it's going to be fun, it's going to be easy, but I'm going to 
tell you that if you've got to have somebody managing the DOE 
at a time when there may be some challenges from a financial 
standpoint, I may be a pretty good person to have at the helm 
of that.
    Senator Coons. I appreciate that response, Mr. Secretary. 
My question really wasn't about managing, it was more about 
priorities----
    Secretary Perry. Yes, sir, but I think----
    Senator Coons [continuing]. And the fact that the President 
ran on supporting manufacturing. This is part of a thoroughly 
thought out well developed strategy for supporting 
manufacturing, one that's been supported in the Senate on a 
bipartisan basis. So my hope is that the critical investments 
DOE's making in manufacturing will get a reconsideration.

                       QUADRENNIAL ENERGY REVIEW

    Let me move to the Quadrennial Energy Review. It could be a 
valuable policy review process. The Defense Department follows 
the same approach. I've worked with Chairman Alexander on 
authorizing legislation that would require the Federal 
Government to undertake a periodic and analytically driven 
review process of energy policy.
    Can you assure me you'll continue to carry out with public 
input the Quadrennial Energy Review that's required to be done 
once every 4 years?
    Secretary Perry. Senator, I'm going to follow the law, and 
if that is statutorily in the law, you better believe it, we're 
going to be doing it. So if it's statutorily required, I'll be 
addressing it.
    Senator Coons. Well, I certainly hope you'll consider it as 
a potentially helpful tool in achieving the overall mission of 
the department.

                             CLIMATE CHANGE

    Let me just last say that in an interview recently, you 
denied the idea that carbon dioxide is a main driver for 
climate change, that human generated carbon dioxide is the main 
driver for climate change.
    What more do you need to hear from scientists or military 
leaders, business leaders, anyone, to be convinced that man-
made greenhouse gas emissions pose a serious threat to our 
economy and our future?
    Secretary Perry. Senator Coons, I think it's a great 
opportunity for this country to have a conversation about the 
climate and get the politics out of it and bring the scientists 
together. As a matter of fact, the undersecretary for President 
Obama, the Undersecretary of Energy for President Obama, Steven 
Koonin, has said he needs a theoretical physicist and was over 
at the department and knows this issue rather well. And he says 
it is probably time for us to have a conversation with all the 
politics out of the room and let the scientists sit.
    And so he was actually offering up the idea of having a red 
team come in and have this conversation. And I would dearly 
love to be in the room when they're having that, not to be one 
of the experts, but to really listen and have that opportunity 
to have the conversation. Because my perspective is that it is 
not settled science, and the idea that, if you don't believe it 
is settled science, you're somehow or another, a Luddite, is 
just a little bit out of the realm of--I don't mind being 
skeptic about things. But I think we ought to be honest about 
it, that there are some pretty substantial, including, 
President Obama's own undersecretary at DOE that says this 
science is not settled.
    And so, Senator, I hope we can agree that maybe it's time 
for us to have a red team approach to this, sit them in the 
room, and let's listen to what they come up with.
    Senator Alexander. Okay. We're way over time.
    Senator Coons. I just want to say thank you for that 
response, and the openness.
    And, thank you, Mr. Chairman, for the chance to bring up my 
concerns.
    Senator Alexander. Thank you, Senator Coons.
    And let me acknowledge Senator Coons' leadership over the 
last few years in a bipartisan way on American competitiveness, 
both in legislation and his actions, and I know he would be a 
valuable partner to the Secretary, as he has been to Senator 
Feinstein and to me.

                              MOX FACILITY

    Let me go to another subject that Senator Feinstein and I 
consider maybe a number one priority, or at least tied for 
number one, and that's the MOX facility in South Carolina.
    I mean, we find ourselves in the middle of an unpleasant 
situation there. But let me ask you, Mr. Secretary, some of the 
same questions I asked General Klotz, the head of NNSA, when he 
testified here, just so that we can be clear about your 
position on this as we work together to try to solve the 
problem with respect to the commitments that were made to South 
Carolina over the last several years.
    Last year, we did not know if WIPP would actually open or 
when. Since then it has re-opened in New Mexico, and has 
resumed operating. Is that correct?
    Secretary Perry. Yes, sir.
    Senator Alexander. Let's talk about the dilute part of 
dilute and disposal first. There were some questions last year 
about whether dilute and disposal method was a proven process. 
Last year the department started to process plutonium, not the 
plutonium that was part of the agreement with Russia, using the 
dilute and disposal method; isn't that true?
    Secretary Perry. That is correct.
    Senator Alexander. And where will that plutonium go after 
it is diluted?
    Secretary Perry. It will go to New Mexico to WIPP. As a 
matter of fact, I think there are five shipments that have 
already been received and processed there.
    Senator Alexander. I know at least four. But thank you.
    So WIPP can accept----
    Secretary Perry. You're correct, Mr. Chairman, it is four.
    Senator Alexander [continuing]. The diluted plutonium. 
There is about 13 tons of plutonium in South Carolina that's 
not needed for the weapons program, about half of that was 
included in the agreement with Russia. Last week General Klotz 
testified before this committee that all of the excess 
plutonium in South Carolina could be sent to WIPP under the 
current law; do you agree?
    Secretary Perry. That is my understanding.
    Senator Alexander. General Klotz testified that operating 
the MOX project would cost at least twice as much as operating 
the dilute and disposal method; does that sound right to you?
    Secretary Perry. Yes, sir. The estimates, I believe this is 
Corps of Engineer estimates, operational costs between $800 
million and $1 billion for MOX, and D&D was $400 million a year 
for operational costs.
    Senator Alexander. So that's operating. Now, how about 
construction costs? How do you compare the construction costs 
of the MOX project and the dilute and disposal project?
    Secretary Perry. Again, the Corps of Engineers estimates, 
about $17 billion for MOX total. We've already put five into 
it.
    Senator Alexander. Okay.
    Secretary Perry. And the dilute and dispose facility would 
be approximately $500 million to construct it.
    Senator Alexander. And General Klotz said, testified, that 
the dilute and disposal method gets the plutonium out of South 
Carolina much sooner. He said the difference was between the 
late 2020s for dilute and disposal, and the early 2050s for the 
MOX procedure. Does that sound right to you?
    Secretary Perry. Yes, sir, that is correct.
    Senator Alexander. I understand there's a considerable 
amount of excess plutonium in Texas. Can we dispose of that 
material using dilute and disposal method, and when could that 
begin?
    Secretary Perry. Yes, sir, you could, and it's my 
understanding that 2035 is the date.
    Senator Feinstein. The beginning?
    Senator Alexander. No, the date for the disposal of the 
excess plutonium in Texas could begin in 2035.
    Secretary Perry. Yes. That is correct.
    Senator Alexander. That's 34 tons, if I'm not mistaken, in 
Texas?
    Secretary Perry. Yes.
    Senator Alexander. The remainder of the 34 tons?
    Secretary Perry. Yes, sir.
    Senator Alexander. Now, that's not the South Carolina 
plutonium, that would go--now, to sort of summarize, we know 
the dilute and disposal method works, it costs less, it gets 
the material out of South Carolina sooner, and the material can 
go to WIPP under current law. Could it go anywhere else?
    Secretary Perry. There're a lot of options, and again, I 
don't want to put on anybody's plate that there is a plan to go 
anywhere with this, but there are obviously other options. 
Maybe some that we haven't even talked about yet. But, yes, 
there are other options.
    Senator Alexander. Thank you, Mr. Secretary.
    Senator Feinstein, do you have other questions?
    Senator Feinstein. No, I'm fine. Thank you, Mr. Chairman.

               ADVANCED RESEARCH PROJECTS AGENCY--ENERGY

    Senator Alexander. Well, I would like to ask one or two 
more pretty quickly, and then I think we have a vote. And if 
you're--I want to ask you about ARPA-E. And I'm going to accept 
your comment earlier that the budget was written before you got 
here, and your job is to robustly defend the budget, and I'm 
not interested in making that awkward for you. But the budget 
proposes to eliminate ARPA-E, and that's not what we're going 
to do. And let me talk about why.
    Twelve years ago, over a 2-year period, we had a bipartisan 
effort in the Senate, and we had legislation introduced first 
by Senator Frist, and I guess it was Senator Reid, even then, 
but the democratic and the republican leader, when the 
democrats were in control and the republican and democratic 
leader when the republicans were in control, we had 50 or 60 
cosponsors, President Bush strongly supported, we called it 
Rising Above the Gathering Storm, and it was an effort created 
by some of the most distinguished Americans, led by Norm 
Augustine, the head of Lockheed Martin, to give us 20 things 
that we could do to help make America more competitive in the 
world and raise our family incomes.
    And as time went on, President Obama's appropriations were 
a major part of that. That bipartisan effort got most of those 
20 things done and funded. One of the most important was ARPA-
E. It was a strong recommendation from this distinguished 
committee, headed by Norm Augustine that we take a look at 
DARPA, the Defense Advanced Research Projects Agency, which has 
led to the invention of the Internet, GPS, stealth aircraft, 
the first weather satellite, and the first computer mouse, and 
see if we can do the same thing with energy.
    What was different about DARPA and is different about ARPA-
E, is that instead of just a government grant, or the 
government trying to be a developer, it brings in to DARPA-E 
and into ARPA-E promising technologies, works with them 2, 3 
years and sends them back out into the marketplace to see if 
they can survive.
    My view, and that view of other Senators, is that ARPA-E's 
been a big success. Its budget's much smaller than DARPA, $306 
million last year, DARPA's ten times bigger. But it includes 
grid scale batteries, energy efficient materials for 
refrigeration, pipelines and shipping, radiative cooling, and 
entirely new and innovative way to cool industrial buildings, 
and engineering bacteria to convert carbon dioxide into fuel.
    Now, I emphasize that, Mr. Secretary, because I think the 
rap against ARPA-E is by some people who don't believe in 
climate change who think all it does is work on a climate 
change. If it does that, that's not all it ought to be doing. 
It ought to be working on clean energy, which has a lot more to 
do with things other than climate change and clean air. For 
example, I've always thought the holy grail of energy will be 
to find some commercial way to take the carbon out of 
smokestacks and do something commercial with it. We talked 
about that with carbon recapture. You know all about that. But 
that has proved a little bit cumbersome and limited in its use. 
So I've always thought that some scientist would find some way 
to do that, and then we can use all the coal in the world all 
we wanted to, because we could remove the sulfur, the nitrogen, 
the mercury, we know how to do that, and if we could also do it 
with carbon, then we could use the coal, we could lower the 
cost of energy, we could eliminate a lot of poverty. And here 
they are over at ARPA-E engineering bacteria to convert carbon 
dioxide into fuel. Now, it may or may not become commercially 
viable, but it might.
    So what I'd like to ask you to do is take a new look at 
ARPA-E and the work being done there. And maybe even invite 
Norm Augustine, who's still around and very much interested in 
this, to come talk with you sometime and say why the group that 
recommended the Rising Above the Gathering Storm thought this 
was so important 10 years ago, and what they think has worked, 
and if there's some areas where they think it hasn't worked, to 
take those criticisms into account.
    And if you find out that all it has been doing has been 
with an unnecessary emphasis on climate change, well, then you 
can correct that. But clean energy is at the center of the 
research effort that we ought to be doing in the United States, 
and ARPA-E may be the very best way we have to do it. So I 
wanted to just bring that to your attention while you're here 
this afternoon.
    Secretary Perry. It is fully in my attention, sir.
    Senator Alexander. Mr. Secretary, you've been an effective 
witness for a difficult budget, and I look forward to working 
with you here. I think you bring a set of skills to problems 
such as MOX and used nuclear fuel that could use those skills. 
I found you to be an excellent student, as I followed you 
through the day at the Oak Ridge National Laboratory, and I've 
watched your leadership in Texas, so we won't agree on 
everything, but I thank you for being here today.
    I ask Senator Feinstein if she has any closing comments, 
and then we'll close the hearing.
    Do you have any closing words you'd like to say, Senator 
Feinstein?
    Senator Feinstein. I think, Mr. Chairman, that you are a 
ten. Thank you. I mean, that was very impressive, and I think 
very convincing.
    Don't you, Mr. Secretary?
    [Laughter.]
    Secretary Perry. I was going to say, at least an 11.
    [Laughter.]
    Secretary Perry. The first liar never has a chance, 
Senator.
    Senator Feinstein. Just say you're convinced.
    Secretary Perry. Yes, ma'am, I am.
    Senator Alexander. And I'm going to----
    Secretary Perry. I am convinced.
    Senator Alexander [continuing]. Thank you both and stop 
while I'm ahead.
    The hearing record will remain open for 10 days. Members 
may submit additional information or questions for the record 
within that time if they would like. The subcommittee requests 
all responses be provided within 30 days.
    Thank you, Mr. Secretary.

                          SUBCOMMITTEE RECESS

    Senator Alexander. The subcommittee will stand adjourned.
    [Whereupon, at 4:50 p.m., Wednesday, June 21, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
